United States Department of Agriculture
Office of Inspector General




Food and Nutrition Services'
Financial Statements for
Fiscal Years 2011 and 2010




                                          Audit Report 27401-0001-21
                                          November 2011
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:          November 14, 2011

AUDIT
NUMBER:        27401-0001-21

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          David Burr
               Chief Financial Officer
               Deputy Administrator for Financial Management

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit


SUBJECT:       Food and Nutrition Service Financial Statements for Fiscal Years 2011 and
               2010

This report presents the results of our audit of the Food and Nutrition Service’s financial
statements for the fiscal years ending September 30, 2011 and 2010. The report contains an
unqualified opinion on the financial statements, as well as the results of our assessment of the
Food and Nutrition Service’s internal controls over financial reporting and compliance with
laws and regulations.

Based on the information provided during the audit, we are making no further
recommendations within this report. We appreciate the courtesies and cooperation extended
to us by members of your staff during our audit fieldwork and subsequent discussion. If you
have any questions regarding this report, please contact me at (202) 720-6945 or have a
member of your staff contact Don Pfeil at (301) 504-2100.
Table of Contents

Executive Summary .................................................................................................1
Opinion on the Comparative Financial Statements .............................................2
Internal Control Over Financial Reporting ..........................................................3
Compliance and Other Procedures ........................................................................3
Responsibilities .........................................................................................................4
Abbreviations ...........................................................................................................7
Exhibit A: Comparative Financial Statements ....................................................8
Food and Nutrition Service Financial Statements for Fiscal Years
2011 and 2010 (Audit Report 27401-0001-21)

Executive Summary

Purpose
Our audit objectives were to determine whether (1) the financial statements present fairly, in all
material respects, in accordance with accounting principles generally accepted in the United
States of America, the assets, liabilities, and net position, net cost, changes in net position, and
combined budgetary resources; (2) the internal control objectives over financial reporting were
met; and (3) the Food and Nutrition Service (FNS) complied with laws and regulations for those
transactions and events that could have a direct and material effect on the comparative financial
statements. We also determined that the Management Discussion and Analysis (MD&A) was
materially consistent with the information in the comparative financial statements.

We conducted our audit at the FNS National Office in Alexandria, Virginia. We also performed
a site visit to the Federal Reserve Bank in Richmond, Virginia, and obtained data from all FNS
Regional Offices.

Results in Brief
In our opinion, FNS’ comparative financial statements for fiscal years 2011 and 2010, including
the accompanying notes, present fairly, in all material respects, the financial position of FNS, as
of September 30, 2011 and 2010, and its net costs, changes in net position, and budgetary
resources for the years then ended, in conformity with accounting principles generally accepted
in the United States of America.

In the section entitled “Internal Controls over Financial Reporting,” we report that although FNS
reported no material weaknesses in its FY 2011 Federal Managers Financial Integrity Act report,
it did report two control deficiencies. One is part of a continuing Department-wide material
weakness on unliquidated obligations, which remains a control deficiency in FY 2011. FNS also
reported that, per the Department mandated assessment of the reimbursable agreements business
process cycle, FNS had a control deficiency related to the lack of testing of the reimbursable
cycle.

In the section entitled “Compliance and Other Procedures,” we report that FNS’ core financial
system is in substantial compliance with the Federal Financial Management Improvement Act of
1996. We did report that the agency was not in full compliance with the Improper Payments
Information Act of 2002 and the Improper Payments Elimination and Recovery Act of 2010.




                                                                AUDIT REPORT 27401-0001-21         1
Independent Auditor’s Report
Audrey Rowe
Administrator
Food and Nutrition Service

We have audited the accompanying balance sheets of the Food and Nutrition Service (FNS), as
of September 30, 2011 and 2010, and the related statements of net cost; changes in net position;
and the combined statements of budgetary resources (hereinafter referred to as the “comparative
financial statements”) for the fiscal years then ended. The objective of our audits was to express
an opinion on the fair presentation of these comparative financial statements. In connection with
our fiscal year 2011 audit, we also considered USDA’s internal control over financial reporting
and tested FNS’ compliance with certain provisions of applicable laws and regulations that could
have a direct and material effect on these comparative financial statements.

The following sections discuss our opinion on FNS’ comparative financial statements; our
consideration of FNS’ internal control over financial reporting; our tests of FNS’ compliance
with certain provisions of applicable laws and regulations; and management’s, as well as our,
responsibilities.

We conducted our audits in accordance with standards generally accepted in the United States of
America (the standards applicable to financial audits are contained in Government Auditing
Standards issued by the Comptroller General of the United States), and the Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Audits, as amended. Those standards and OMB Bulletin 07-04, as amended, require that we plan
and perform the audits to obtain reasonable assurance that the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe our audits provide a reasonable basis for
our opinion.

Opinion on the Comparative Financial Statements

In our opinion, the comparative financial statements referred to above present fairly, in all
material respects, the financial position of FNS, as of September 30, 2011 and 2010, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

FNS’ Management Discussion and Analysis (MD&A) and required supplementary information
(including stewardship information) contains a wide range of information, some of which is not
directly related to the financial statements. This information is not a required part of the
comparative financial statements, but is supplementary information required by accounting
principles generally accepted in the United States of America and the Office of Management and
Budget (OMB) Circular A-136. We have applied certain limited procedures, consisting

2    AUDIT REPORT 27401-0001-21
principally of comparing this information for consistency with the financial statements and
making inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no
opinion on it.

Internal Control Over Financial Reporting

Our consideration of the internal controls over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

Significant deficiencies are deficiencies, or a combination of deficiencies, in internal control that
are less severe than a material weakness, yet important enough to merit attention by those
charged with governance. Material weaknesses are deficiencies or a combination of deficiencies
in internal control, such that there is a reasonable possibility that a material misstatement of the
comparative financial statements being audited will not be prevented, or detected and corrected
on a timely basis. Because of inherent limitations in any internal control, misstatements due to
error or fraud may occur and not be detected.

We did not identify any material weaknesses that were not disclosed in FNS’ Federal Managers’
Financial Integrity Act of 1982 (FMFIA) Report on Management Control. FNS asserted through
its FY 2011 FMFIA submission that although no material weaknesses were identified, it did
identify one recurring control deficiency that was part of a Department-wide material weakness
on unliquidated obligations. A second control deficiency noted by FNS was the lack of a
business process cycle on reimbursable agreements. This was a mandate from the Department in
FY 2011 and as such, FNS had not previously developed a testing plan over this cycle.

Compliance and Other Procedures

We performed tests of FNS’ compliance, as described in the Responsibilities section of this
report. Our tests disclosed two instances of noncompliance with laws and regulations that are
required to be reported under Government Auditing Standards and OMB Bulletin 07-04, as
amended. We found that FNS is not in full compliance with the Improper Payments Information
Act (IPIA) of 2002 as amended by the Improper Payments Elimination and Recovery Act of
2010 (IPERA) requirements regarding the design of program internal controls related to
reporting improper payments. The IPIA requires agency officials to estimate erroneous
payments for all programs susceptible to significant improper payments. FNS reported estimated
improper payments for Special Nutrition Assistance Program (SNAP), the National School
Lunch Program (NSLP) and, the School Breakfast Program (SBP). However, FNS has not
reported erroneous payment rate estimates for the Special Supplemental Nutrition Program for
Women, Infants and Children (WIC) certification errors, WIC vendor errors, and the Child and
Adult Care Food Program (CACFP) meal claiming errors. As stated in the FNS MD&A, work is
currently underway to report on WIC certification errors. An estimate of erroneous payments
associated with WIC certification errors will be available by the end of calendar year 2011.
Regarding CACFP meal claiming, FNS has developed a methodology to randomly sample the

                                                               AUDIT REPORT 27401-0001-21          3
results of State monitoring visits to Family Day Care Homes (FDCHs) and follow up by
observing the FDCHs or contacting parents to corroborate the Family Day Care Sponsors’ child
claimant reports. FNS has not established a date for publishing the CACFP claiming error
estimate.

OMB Circular A-136 requires that agencies report the amount of improper payments the agency
identified and recovered through other than payment recapture audits i.e. state audits. FNS has
not reported the amount of improper payments they have recovered for the SNAP, the WIC, the
CACFP, the NSLP, and the SBP. FNS explains in section 4 of its MD&A that the current statute
only provides authority to recover improper payments identified through reviews, audits, or other
operational oversight activity. FNS further explains that an estimated recovery target amount for
the SNAP is not feasible because claim collections are tied to the ability of States to pursue and
collect erroneous payments.

As required by OMB Bulletin 07-04, as amended, with respect to internal controls related to key
performance measures as determined by management and reported in the MD&A, we obtained
an understanding of the design of significant internal controls related to the existence and
completeness assertions and determined if they had been placed in operation. Our procedures
were not designed to provide assurance on internal controls over reported performance measures.
Accordingly, we do not provide an opinion on such controls.

As further required by OMB Bulletin 07-04, as amended, we considered FNS’ internal controls
over Required Supplementary Stewardship Information (RSSI) by obtaining an understanding of
the internal controls, along with making a determination if those controls had been placed in
operation, assessing control risk, and performing tests of the controls. Our procedures were not
designed to provide assurance on internal controls over RSSI. Accordingly, we do not provide
an opinion on such controls.

Additionally, the results of our tests disclosed no instances in which FNS’ financial management
systems did not substantially comply with the Federal Financial Management Improvement Act.

Responsibilities
Management’s Responsibilities

FNS’ management is responsible for (1) preparing the comparative financial statements in
conformity with accounting principles generally accepted in the United States of America;
(2) establishing, maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the FMFIA are met; (3) ensuring that FNS’ financial management
systems substantially comply with FFMIA requirements; and (4) complying with applicable laws
and regulations.

Auditor’s Responsibilities

Our responsibility is to express an opinion on the fiscal years 2011 and 2010 comparative
financial statements of the FNS based on our audits. We conducted our audits in accordance

4    AUDIT REPORT 27401-0001-21
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards and OMB 07-04, as amended,
require that we plan and perform the audit to obtain reasonable assurance about whether the
comparative financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of FNS’ internal control over financial reporting. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements, assessing the accounting principles used and significant estimates made by
management, and evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.

In planning and performing our audits, we considered FNS’ internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the comparative financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin 07-04, as
amended and Government Auditing Standards. We did not test all internal controls as defined by
the FMFIA. The objective of our audit was not to provide an opinion on FNS’ internal control.
Consequently, we do not provide an opinion on internal control over financial reporting, or on
FNS’ assertion on internal control included in its MD&A.

As part of obtaining reasonable assurance about whether the comparative financial statements are
free of material misstatement, we performed tests of FNS’ compliance with certain provisions of
laws and regulations, contracts and agreements, and Governmentwide policy requirements,
noncompliance with which could have a direct and material effect on the determination of the
comparative financial statement amounts. We also obtained reasonable assurance that FNS
complied with certain provisions of other laws and regulations specified in OMB Bulletin 07-04,
as amended, including requirements referred to in the FFMIA, except for those that, in our
judgment, were clearly inconsequential. We limited our tests of compliance to the provisions
described in the preceding sentences and did not test compliance with all laws and regulations
applicable to FNS. However, providing an opinion on compliance with laws and regulations was
not an objective of our audit and, accordingly, we do not express such an opinion.




                                                             AUDIT REPORT 27401-0001-21       5
This report is intended solely for the information of the management of USDA, OMB, the
U.S. Government Accountability Office and the U.S. Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties.



Gil Harden /s/
Assistant Inspector General
 for Audit
November 8, 2011




6    AUDIT REPORT 27401-0001-21
Abbreviations

CACFP........................ Child and Adult Care Food Program
FDCH.......................... Family Day Care Home
FFMIA ........................ Federal Financial Management Improvement Act
FMFIA ........................ Federal Manager’s Financial Integrity Act
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
IPIA............................. Improper Payment Information Act of 2002
IPERA ......................... Improper Payment Elimination and Recovery Act of 2010
MD&A ........................ Management Discussion and Analysis
NSLP........................... National School Lunch Program
OMB ........................... Office of Management and Budget
OIG ............................. Office of Inspector General
RSSI ............................ Required Supplementary Stewardship Information
SBP ............................. School Breakfast Program
SNAP .......................... Special Nutrition Assistance Program
USDA.......................... Department of Agriculture
WIC............................. Special Supplemental Nutrition Program for Women Infants, and Children




                                                                       AUDIT REPORT 27401-0001-21   7
Exhibit A: Comparative Financial Statements




             FOOD and NUTRITION SERVICE
              FISCAL YEARS 2011 and 2010
               FINANCIAL STATEMENTS
                  PREPARED BY FNS




8   AUDIT REPORT 27401-0001-21
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS




             MANAGEMENT DISCUSSION AND ANALYSIS

SECTION 1: MISSION, ORGANIZATIONAL STRUCTURE AND PROGRAMS

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA).
FNS was established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant
to the authority contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs. Its
mission is to increase food security and reduce hunger in partnership with cooperating organizations by
providing children and low-income people access to food, a healthful diet, and nutrition education in a
manner that supports American agriculture and inspires public confidence.

The FNS annual appropriation for administrative funds includes a very small percentage of funds for the
administration of the Center for Nutrition Policy and Promotion (CNPP). CNPP links scientific research
to the nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination,
and nutrition education. CNPP develops integrated nutrition research, education, and promotion
programs and provides science-based dietary guidance.

FNS FY 2011 Organization Chart




                                                 Page 1 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




Descriptions of FNS Programs:
Over the past half-century – beginning with the National School Lunch Program in 1946 – the Nation has
gradually built an array of nutrition assistance programs designed to help the most vulnerable populations
meet their food needs. Taken together, the current programs form a nationwide safety net supporting low-
income families and individuals in their efforts to escape food insecurity and hunger and achieve healthy,
nutritious diets. Currently, the programs administered by FNS touch the lives of one in five Americans
over the course of a year.

The nutrition assistance programs described below works both individually and in concert with one
another to improve the Nation’s nutrition and health by improving the diets of children and low-income
households.

•   Supplemental Nutrition Assistance Program (SNAP): Authorized by the Food and Nutrition Act of
    2008, SNAP serves as the primary source of nutrition assistance for over 33 million low-income
    people. It enables participants, about 49 percent of whom are children, to improve their diets by
    increasing food purchasing power using benefits that are redeemed at authorized retail grocery stores
    across the country. State agencies are responsible for the administration of the program according to
    national eligibility and benefit standards set by Federal law and regulations. Benefits are 100 percent
    Federally-financed, while administrative costs are shared between the Federal and State
    Governments.

    SNAP provides the basic nutrition assistance benefit for low-income people in the United States;
    other FNS programs supplement this program with benefits targeted to special populations, dietary
    needs and delivery settings. (Puerto Rico, the Commonwealth of the Northern Mariana Islands and
    American Samoa receive grant funds with which to provide food and nutrition assistance in lieu of
    SNAP.)

•   Food Distribution Program on Indian Reservations (FDPIR): FDPIR distributes USDA-purchased
    foods as an alternative to SNAP for Indian households on or near reservations. State agencies and
    Indian Tribal Organizations (ITOs) that operate the program are responsible for certifying recipient
    eligibility, nutrition education, local warehousing and transportation of food, distribution of food to
    recipient households, and program integrity. The Federal Government pays 100 percent of the cost of
    commodities distributed through the program, and cash payments for administrative expenses.

•   Child Nutrition Programs (CNP): The Child Nutrition Programs - National School Lunch (NSLP),
    School Breakfast (SBP), Special Milk (SMP), Child and Adult Care Food (CACFP), and Summer
    Food Service (SFSP) - provide reimbursement to State and local governments for nutritious meals
    and snacks served to over 31 million children in schools, child care institutions, adult day care
    centers, and after school care programs. FNS provides cash and USDA purchased food on a per-meal
    basis to offset the cost of food service at the local level and a significant portion of State and local
    administrative expense, and provides training, technical assistance, and nutrition education.
    Payments are substantially higher for meals served free or at a reduced price to children from low-
    income families.




                                                  Page 2 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



•   Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC addresses the
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum
    women, infants and children up to five years of age. It provides participants monthly supplemental
    food packages targeted to their dietary needs, nutrition education, and referrals to a range of health
    and social services – benefits that promote a healthy pregnancy for mothers and a healthy start for
    their children. Appropriated funds are provided to States for food packages and nutrition services and
    administration for the program; States operate the program pursuant to plans approved by FNS. WIC
    is augmented in some localities by the Farmers’ Market Nutrition Program, funded within the
    Commodity Assistance Program account, and authorized by the WIC Farmers’ Market Nutrition Act
    of 1992, which provides fresh produce to WIC participants.

•   The Emergency Food Assistance Program (TEFAP): This program supports the emergency food
    organization network by distributing USDA-purchased food for use by emergency feeding
    organizations including soup kitchens, food recovery organizations, and food banks. TEFAP also
    provides administrative funds to defray costs associated with processing, repackaging, storage, and
    distribution of Federal and privately donated food. The allocation of both Federal food and
    administrative grants to States is based on a formula that considers the States’ unemployment levels
    and the number of persons with income below the poverty level.

•   The Commodity Supplemental Food Program (CSFP): This program provides foods purchased by
    USDA to low-income infants and children up to age six, low-income pregnant and postpartum
    women, and to low-income senior citizens. In recent years, there has been a shift towards low-
    income elderly in this program; in FY 2009, elderly participation comprised approximately 95 percent
    of total participation. Foods are distributed through State agencies to supplement food acquired by
    recipients from other sources. The CSFP is operated as a Federal/State partnership under agreements
    between FNS and State health care, agricultural or education agencies. Currently, 39 States, the
    District of Columbia, and two Indian reservations operate CSFP.

•   Senior Farmers’ Market Nutrition Program (SFMNP): This program provides coupons to low-
    income seniors that can be exchanged for fresh, nutritious, unprepared, locally grown fruits,
    vegetables and herbs at farmers’ market, roadside stands, and community-supported agriculture
    programs.

•   Pacific Island and Disaster Assistance: Pacific Island Assistance includes assistance to the nuclear-
    affected zones of the Republic of the Marshall Islands in the form of USDA purchased food, or cash-
    in-lieu of food, and administrative funds and is authorized under the Compact of Free Association
    Amendments Act of 2003, (P.L. 108-188). Disaster relief funds are provided for use in non-
    Presidentially declared disasters.

Federal nutrition assistance programs operate as partnerships between FNS and the State and local
organizations that interact directly with program participants. States voluntarily enter into agreements
with the Federal Government to operate programs according to Federal standards in exchange for
program funds that cover all benefit costs, and a significant portion of administrative expenses.

Under these agreements, FNS is responsible for implementing statutory requirements that set national
program standards for eligibility and benefits, providing Federal funding to State and local partners, and
monitoring and evaluating to make sure that program structures and policies are properly implemented
and effective in meeting program missions. State and local organizations are responsible for delivering
benefits efficiently, effectively, and in a manner consistent with national requirements.

                                                  Page 3 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS




FNS Staff:
The public servants of FNS are an important resource for advancing the key outcomes sought through the
nutrition assistance programs. The agency staff serves to ensure and leverage the effective use of the
other program appropriations.
Approximately 76 percent of FNS staff is funded primarily out of the Nutrition Programs Administration
account, which represents approximately one-third of one percent of the total FNS budget. The balance
of the FNS staff is funded from program accounts. The agency employment level represents less than two
percent of the total employment within USDA and is similarly small in proportion to the total State-level
staff needed to operate the programs. The agency employs people from a variety of disciplines, including
policy and management analysts, nutritionists, computer and communication experts, accountants,
investigators, and program evaluators. Because of the small size of the agency’s staff relative to the
resources it manages, FNS has created clear and specific performance measures and must focus its
management efforts in a limited number of high-priority areas.
Program operations are managed through FNS’ seven regional offices and 65 field offices/satellite
locations. A regional administrator directs each regional office. These offices maintain direct contact
with State agencies that administer the FNS programs. The agency’s regional offices also conduct on-site
management reviews of State operations and monitor the nearly 232,729 stores authorized to redeem
SNAP benefits.
As of September 30, 2011, there were 1,325 full-time permanent employees in the agency. There were
527 employees in the Washington headquarters office; and 798 in the field, which includes seven regional
offices; 65 field offices; four SNAP compliance offices in Illinois, California, New Jersey, and
Tennessee; and a computer support center in Minneapolis, Minnesota. The chart below displays staff
year utilization.


                                                                2010          2011          2012
        Project                                                 Actual        Actual      Requested
        Supplemental Nutrition Assistance Program                    112           134            166
        Child Nutrition Programs                                     164           168            176
        Commodity Assistance                                           2              2             2
        Supplemental Nutrition Program _WIC                           22             22            22
        Nutrition Programs Administration                            999         1,012            968
        Center for Nutrition Policy and Promotion                     34             32            32
        Total Available                                            1,333         1,370         1,366




                                                 Page 4 of 57
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                   FINANCIAL STATEMENTS




SECTION 2. PERFORMANCE GOALS, OBJECTIVES and
RESULTS
The FNS agency goals and objectives are fully integrated into USDA’s Strategic Goal 4 with three related
Department Strategic objectives. Each Department Strategic Objective has a key outcome and indicator,
as discussed below.

USDA Strategic      USDA Strategic           Programs that
                                                                       Key Outcomes                Key Indicators
    Goal                Objective             Contribute 1
                  USDA Strategic
                                                                   Key Outcome 1:
                  Objective 4.1:          SNAP, CN, WIC,                                        Program Participation
                                                                   Reduce hunger and
                  Increase Access to      CAP, FDPIR, TEFAP                                     Rates
                                                                   improve nutrition.
                  Nutritious Food
USDA Goal 4:
                  USDA Strategic                                   Key Outcome 2:
Ensure That All
                  Objective 4.2:          SNAP, CN, WIC            Promote more healthful
of America’s                                                                                    Nutrition Guidance
                  Promote Healthy                                  eating and physical
Children Have                                                                                   Distribution Volume
                  Diet and Physical       CNPP 2                   activity across the
Access to Safe,
                  Activity Behaviors                               Nation.
Nutritious, and
                  USDA Strategic
Balanced Meals                                                     Key Outcome 3:
                  Objective 4.3:
                                          SNAP, CN, WIC            Maintain a high level of     SNAP Payment
                  Protect Public Health
                                                                   integrity in the nutrition   Accuracy Rate
                  by Ensuring Food is
                                                                   assistance programs.
                  Safe



STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN
HAVE ACCESS TO SAFE, NUTRITIOUS, AND BALANCED MEALS

Nutrition is the link between agriculture and the Nation’s health, and the Department made strong
progress in advancing our nutrition and health goal in 2011. USDA’s leadership of the Federal nutrition
assistance programs made a healthier diet available for millions of children and low-income families.
And the cutting-edge nutrition promotion efforts of the Center for Nutrition Policy and Promotion
harnessed interactive technologies to motivate all Americans to make positive dietary behavioral changes
consistent with the Dietary Guidelines for Americans and the HealthierUS initiative. Key 2011
accomplishments include:

Promoting access to the Supplemental Nutrition Assistance Program (SNAP). SNAP is the Nation’s
   largest nutrition assistance program, serving 45.2 million people in June 2011. The latest information
   on the rate of participation among eligible people showed that in 2009, 72 percent of all who were
   eligible participated as compared with 54 percent in 2001.

Promoting Nutrition Education by Using the MyPlate Food Guidance System. MyPlate—a network
   of nutrition education tools that translates the Dietary Guidelines for Americans into understandable
   concepts for consumers—offers the American public an individualized approach to nutritional well-
   being and active living. ChooseMyPlate.gov’s web-based educational tools help Americans assess
   and personalize their diet and physical activity plans. . The newest tool was the MyPlate for
   Preschoolers (ages 2 to 5 years old) to help parents use MyPlate to help their young children eat well,

1
  SNAP = Supplemental Nutrition Assistance Program (formerly the Food Stamp Program), CN=Child Nutrition (includes the
National School Lunch Program, the School Breakfast Program, and the Special Milk Program), WIC = Special Supplemental
Nutrition Program for Women, Infants & Children, CAP = Commodity Assistance Programs, FDPIR = Food Distribution
Program on Indian Reservations, TEFAP = The Emergency Food Assistance Program
2
  CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)

                                                        Page 5 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



    be active, and be healthy. Consumers continue to respond enthusiastically to this educational
    approach; thus, CNPP continues to develop new educational tools to promote nutrition education to
    specific population groups to help stem the trends in obesity and nutrition-related diseases. In 2011,
    transitions ocurred with the release of the 2010 Dietary Guidelines for Americans in January 2011
    and ChooseMy Plate.gov in May 2011.


Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy rate for
   FY 2010, announced in June, 2011, was 96.19 percent, a new record high that reflects effective
   partnerships with State administering agencies, and extensive use of policy options to streamline
   program administration while improving access for working families.


In FY 2011, USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply, and better knowledge and education to promote healthier food
choices. In FY 2011, USDA pursued national policies and programs to ensure that everyone has access to
a healthy diet regardless of income, and that the information is available to support and encourage good
nutrition choices.

USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition
assistance education programs relies heavily on research. The research provides critical knowledge of
what we need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner
that leads to true changes in our diets. Research also supports development of new healthy and tasty food
products providing another avenue for helping consumers eat well.

STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN HAVE ACCESS
TO SAFE, NUTRITIOUS AND BALANCED MEALS
OBJECTIVE 4.1: INCREASE ACCESS TO NUTRITIOUS FOODS
4.1.1 Participation levels for major Federal nutrition assistance programs SNAP.
       (Millions per month)

Overview

The Supplemental Nutrition Assistance Program (SNAP) is the foundation of America’s nutrition
assistance program system. SNAP provides benefits that can be used to purchase food at authorized
retailers for preparation and consumption at home. It makes resources that can be used for food available
to most households with little income. Benefit levels are based on the Thrifty Food Plan, a representative
healthful and minimal cost meal plan that shows how a nutritious diet may be achieved with limited
resources. The amount received by a household depends on their income, expenses, and household size.




                                                  Page 6 of 57
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                        FINANCIAL STATEMENTS



    Analysis of Results
    In FY 2011, the Department and its program delivery partners sustained effective access to SNAP.
    Average monthly participation reached 44.3 million in 2011 (Oct 2010-June 2011), within the range (43.2
    million-45.4 million) for the 2011 target of 45.0 million.

    Program participation increased over 5 percent during FY 2011. USDA’s efforts to support and encourage
    SNAP participation included:
    • Continued efforts with States to develop outreach strategies. Forty-five out of 53 State agencies – up
       from 40 in FY 2009 -- now have formal outreach plans or other documented outreach activity;
    • Supported innovative State practices to promote access by simplifying the application process. Thirty
       States use an Internet-based application filing system. A total of 47 States allow telephone interviews.
       A total of 27 States use call centers;
    • Provided numerous strategies to help States manage workloads because of increasing participation
       and decreasing State resources due to the economic downturn. These strategies include policy
       waivers; a workload management matrix tool; a program access toolkit; and encouragement of broad-
       based categorical eligibility (42 States) to improve access to applicants and simplify policies for State
       administration.

    USDA also estimates the number of people eligible for the program along with the rate at which eligible
    people are participating. The latest study shows that, in 2009, 72 percent of all persons eligible for SNAP
    participated. While the number of those eligible continued to grow rapidly in 2008, increasing by 5.5
    percent over the 2007 level, the number of participants increased by 7 percent. Also in 2009, participants
    received 91 percent of all benefits available if every eligible person participated. This number indicates
    that the program is effectively reaching those most in need.


 Annual Performance Goals, Indicators                2007        2008         2009         2010                 Fiscal Year 2011
             and Trends                                                                                Target      Actual        Result
4.1.1 Participation levels for the major Federal       26.5       28.4        33.5           40.3       45.0         44.3         Met
         nutrition assistance programs (millions
         per month): Supplemental Nutrition
         Assistance Program Avg.(Monthly)
         participation (millions)
Rationale for Met Range: Thresholds for 4.1.1 reflect the margin of error in forecasts of future participation. For Supplemental Nutrition
Assistance Program (SNAP) participation, results from 2 independent assessments suggest that predictions of the number of SNAP
participants are accurate to within plus-or-minus 7.5 percent on average.
 For 2011, this percentage thus allows for actual performance that meets the target range of 43.2-45.4 million for SNAP.
Data Assessment of Performance Measure 4.1.1
SNAP participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at FNS. If data are
reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, the FNS works with regional
offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
reliable as possible
Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly
before being declared annual data. Reported estimates are based on data through June 30, 2011, as available September 2011.
Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
Office, the Office of Inspector General, and the Office of Management and Budget.
Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and

                                                               Page 7 of 57
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                       FINANCIAL STATEMENTS



 Annual Performance Goals, Indicators               2007       2008          2009        2010                 Fiscal Year 2011
             and Trends                                                                              Target     Actual        Result
outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


    Challenges for the Future

    Studies and analyses show that one reason that SNAP-eligible people who do not participate are that they
    may not be aware of their eligibility. Efforts to improve access to and promote awareness of SNAP, and
    seek improvements in policy and operations that make applying easier are ongoing challenges.

    The quality of program delivery by third parties—hundreds of thousands of State and local Government
    workers and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition.
    Proper program administration, including timely determination of eligibility, is of special concern.

    4.1.2 Improve SNAP payment accuracy
    Overview

    Ensuring that SNAP and other Federal nutrition assistance programs are administered with integrity is
    central to USDA’s mission. Waste and abuse draw scarce resources away from those who need them the
    most. Just as importantly, the programs are ultimately not sustainable without public confidence that
    benefits go to those who qualify, are used appropriately, and achieve their intended purposes. The
    Department seeks to increase food security and reduce hunger in a manner that inspires public confidence
    that taxpayer dollars are used wisely.

    Designed to respond to economic conditions, participation in the program has recently grown and benefits
    have increased, yet USDA remains strongly committed to program integrity. The Department takes its
    stewardship responsibilities for tax payer dollars seriously through an established Quality Control (QC)
    system and long-standing support for payment accuracy initiatives. The Department continuously works
    to improve payment accuracy through partnerships with States, and regulatory and statutory requirements
    for a system that rewards exemplary program performance while holding low-performing States
    accountable. It also uses an early detection system to target States that may be experiencing a higher
    incidence of errors based on preliminary QC data. Actions then are taken by regional offices to address
    these situations in the individual States.

    Analysis of Results

    SNAP payment accuracy reached a record-high 96.19 percent in 2010, the latest for which data are
    available. The number reflects the excellent performance by State agencies in administering the program.
    This combined rate reflects 3.05 percent in overpayments and .76 percent in underpayments for a total of
    3.81 in erroneous payments.

    Forty-seven States had a payment accuracy rate greater than 94 percent, including 23 States with rates
    greater than 96 percent. This is the same number States with 94 percent accuracy and 6 less States with 96
    percent accuracy from the previous year.




                                                              Page 8 of 57
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                        FINANCIAL STATEMENTS




  Annual Performance Goals, Indicators                2007       2008         2009          2010                Fiscal Year 2011
              and Trends                                                                                 Target       Actual      Result
4.1.2    Improve SNAP Payment Accuracy Rate           94.4%      94.3%        94.9%        96.19%        95.64%        Not       Deferred
         Baseline: 2001 = 91.34%                                                                                     Available
FY 2011 data will be available in 2012.
Rationale for Met Range: The 95.0 percent confidence interval around the estimate of payment accuracy is ±.33.
• For 2011, this confidence level allows for actual performance that meets the target in the range 95.31 – 95.97 percent.

Data Assessment of Performance Measure 4.1.2
The Supplemental Nutrition Assistance Program (SNAP), formerly the Food Stamp Program, uses annual payment accuracy data from the
Quality Control (QC) process to support SNAP management. The data are based upon statistically valid methodology. The QC process
uses a systematic random sampling of SNAP participants to determine a combined payment error rate for each State. The combined error
rate is composed of over-issuances and under-issuances of SNAP benefits. A regression formula is applied to the results of the reviews to
calculate official error rates. State agencies review selected cases monthly to determine the accuracy of the eligibility and benefit-level
determination. The process includes a client interview and verification of all elements of eligibility and the basis of issuance. Federal
reviewers validate a sample of the State’s reviews by conducting a re-review. The process has proven to be a sound method of calculating
reliable data.
Completeness of Data—The most current data available for this measure are for FY 2010. The payment accuracy rate of 96.19 percent
exceeded the performance goal/measure target. FY 2011 performance will be deferred until next year’s report.
Reliability of Data— QC data are valid and accepted by State SNAP agencies as a basis for performance-incentive payments and
penalties. The U.S. Government Accountability Office and the Office of Inspector General also use it regularly.
Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is frequently cited as an important, high-quality indicator of program performance.




     Challenges for the Future
     The most critical challenge impacting future success is continuing resource limitations for State agencies.
     State budgets have been and will continue to be extremely tight. This factor could hurt State performance
     in payment accuracy. USDA will continue to provide technical assistance and support to maintain
     payment accuracy in the context of this difficult program environment.



     4.1.3 Participation levels for the major Federal nutrition assistance programs
                      (millions per day)
     Overview

     The National School Lunch Program (NSLP) and the School Breakfast Program (SBP) support schools in
     ensuring access to nutritious food for the children they serve. The programs provide per-meal
     reimbursement to State and local Governments for meals and snacks served. All meals must meet Federal
     nutrition standards to qualify for reimbursement.

     In FY 2011, NSLP serves lunches and snacks in more than 100,700 schools and residential child-care
     facilities. More than 66 percent of meals are served to low-income children for free or at reduced price.

     SBP helps school children start the day ready to learn by serving breakfast in more than 88,700 schools
     and residential child-care facilities. Nearly 84 percent of meals are served free or at reduced price to low-
     income children.


                                                               Page 9 of 57
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                        FINANCIAL STATEMENTS




    Analysis of Results
    In FY 2011, USDA and its program delivery partners sustained effective access to school meals. The
    increased use of direct certification for free school meals for children enrolled in means-tested programs
    such as SNAP or the Temporary Assistance for Needy Families (TANF) program has helped to provide
    easy access to school meal benefits. During the 2009-10 school year, 82 percent of school districts used
    direct certification, up from 78 percent in the prior year. TANF provides financial assistance for children
    and their parents or relatives who are living with them.

    NSLP participation levels reached 31.8 million in FY 2011; within the Met range (30.5 million-33.7
    million) for the 2011 target of 32.1 million. Participation increased slightly from FY 2010, continuing the
    trend of increases in recent years. Average SBP participation levels reached 12.1 million in FY 2011;
    within the Met range (11.8 million – 13.0 million) for the 2011 target of 12.4 million. These numbers also
    continue a trend of increases during the last several years.

  Annual Performance Goals, Indicators                2007        2008         2009          2010               Fiscal Year 2011
              and Trends                                                                                 Target        Actual       Result
4.1.3    Participation levels for the major Federal
        nutrition assistance programs (millions
        per day)
 • National School Lunch Program                        30.5      30.9        31.6           31.7           32.1         31.8          Met
 • School Breakfast Program                             10.1      10.6        11.0           11.7           12.4         12.1          Met
Rationale for Met Range: Thresholds for 4.1.3 reflect the margin of error in forecasts of future participation, estimated at 5 percent for
school meals programs. This reflects the pattern of variance between actual and target performance for both programs during the past 5
years. For FY 2011, this percentage range allows for actual performance that meets the targets in the range of 30.5-33.7 million for the
National School Lunch Program and 11.8-13.0 million for the School Breakfast Program.
Data Assessment of Performance Measure 4.1.3
School meals participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data
are reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
reliable as possible.
Completeness of Data— Figures for NSLP and SBP are based on 9-month (school year) averages. Participation data are collected and
validated monthly before being declared annual data. Reported estimates are based on data through June 30, 2011, as available September
2011.
Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
Office, the Office of Inspector General, and the Office of Management and Budget.
Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.




                                                               Page 10 of 57
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                         FINANCIAL STATEMENTS




    Challenges for the Future

    While almost all school children have access to Federally-subsidized school lunches, significantly fewer
    schools operate School Breakfast Programs. USDA will continue to pursue strategies to ensure that all
    students are able to start the day with a nutritious breakfast, at home or at school.

    As with other nutrition assistance programs, the Department relies on its partnerships with third parties—
    hundreds of thousands of State and local Government workers and their cooperators— to sustain effective
    school meals program delivery.

    4.1.4 Participation levels for the major Federal nutrition assistance programs
                     (millions per month) WIC program average

    Overview

    The Special Supplemental Nutrition Program for Women, Infants and Children (WIC) is a critical
    component of the nutrition assistance safety net. WIC’s major objective is to address the nutrition needs
    of low-income pregnant, breastfeeding, and postpartum women, infants, and children up to 5 years of age
    who are found to be at nutritional risk.


    Analysis of Results

    In FY 2011, average monthly WIC participation was approximately 8.9 million participants; within the
    Met range (8.9 million-9.6 million) for the target of 9.3 million. USDA continued to meet its ongoing
    commitment to provide sufficient program resources to support participation for all eligible people who
    apply for benefits.

    The Department also estimates the number of people eligible for WIC and calculates the rate at which
    eligible people are participating. The latest study shows that, in 2007, WIC served an estimated 59
    percent of the population eligible for benefits. This figure reflects participation by more than 80 percent
    of eligible infants, 66 percent of eligible pregnant women, more than 85 percent of eligible breastfeeding
    women, and 71 percent of eligible postpartum women.


  Annual Performance Goals, Indicators                 2007       2008         2009           2010                 Fiscal Year 2011
              and Trends                                                                                  Target        Actual       Result
4.1.4   Participation levels for the major Federal      8.3         8.7         9.1            9.2           9.3          8.9          Met
        nutrition assistance programs (millions
        per month): WIC Program (average)
Rationale for Met Range: Thresholds for 4.1.4 reflect the margin of error in forecast of future participation, estimated at 3 percent for the
WIC program. This reflects the pattern of variance between actual and target performance over the past 5 years.
For FY 2011, this percentage thus allows for actual performance that meets the target in the range of 8.9-9.6 million for WIC.
Data Assessment of Performance Measure 4.1.4
WIC participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the


                                                               Page 11 of 57
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                       FINANCIAL STATEMENTS



 Annual Performance Goals, Indicators                2007        2008         2009         2010               Fiscal Year 2011
             and Trends                                                                                Target       Actual       Result
National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel
reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are
reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
reliable as possible.
Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly
before being declared annual data. Reported estimates are based on data through June 30, 2011, as available September 2011.
Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
Office, the Office of Inspector General, and the Office of Management and Budget.
Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


    Challenges for the Future

    Ensuring that adequate, timely funding is available to USDA’s program partners to support participation
    among all eligible applicants is an ongoing challenge. The Department and its partners must continue to
    work together to manage funds carefully and maintain efficient operations to serve all those in need.

    OBJECTIVE 4.2: PROMOTE HEALTHY DIET AND PHYSICAL ACTIVITY BEHAVIOR
    4.2.1Application and usage level of nutritional guidance tools.

    Overview

    Good nutrition and regular physical activity are important throughout the life cycle and can help reduce
    the rate of overweight and obesity in the U.S. population, especially among the Nation’s children. Both
    good nutrition and physical activity are also essential to helping prevent diet-related chronic diseases,
    such as diabetes, cardiovascular disease, and high blood pressure. Thus, achieving and sustaining
    appropriate body weight across the lifespan is vital to maintaining good health and quality of life.

    The Department is committed to using Federal nutrition policy and information—both based on the most
    recent, credible science—to encourage the U.S. population to develop and maintain healthy diets and
    active lifestyles that benefit each individual, each family, and the Nation. As the Secretary said at the
    January 2011 release of the 2010 Dietary Guidelines for Americans, we are at a time when the majority of
    adults and one in three children is overweight or obese; this is a crisis that we can no longer ignore.

    The Department depends on the Nutrition Evidence Library to develop the sound assessment of
    nutritional science on which to base the Dietary Guidelines for Americans (available at
    www.dietaryguidlines.gov). ChooseMyPlate.gov is the electronic portal to plain-language guidance and
    advice for Americans to apply the Dietary Guidelines for improving their overall health. The Department
    uses the Nutrition Evidence Library to conduct transparent systematic reviews of the science that forms
    the conclusions on which nutrition policy is based. This science-based resource is available at
    www.nutritionevidencelibrary.gov. The Department uses the Dietary Guidelines for Americans, which it
    establishes jointly with the Department of Health and Human Services (DHHS), to form the basis of
    Federal nutrition policy, education, outreach, and of food assistance programs. It uses electronic tools,
    print materials, and other resources to communicate the importance of healthy eating and physical activity
    to consumers. The MyPlate icon and guidance materials and tools at www.ChooseMyPlate.gov are
                                                              Page 12 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



important means by which the Department helps empower the American public with actionable
information to make healthful food choices and to achieve healthy and active lifestyles. The Department
also continues to encourage “information multipliers”—community and national strategic partners—to
extend the reach and impact of nutrition guidance messages, both with Federal nutrition assistance
programs and with the general public.


Other key FY 2011 accomplishments include the following:
   • The USDA, along with DHHS, released the 2010 Dietary Guidelines for Americans, which
        include recommendations that are an integrated set of advice to achieve an overall healthy eating
        pattern. The Guidelines focus on balancing calories with physical activity and encouraging
        Americans to shift eating patterns to make more healthful choices, such as consuming more
        vegetables, fruits, whole grains, fat-free and low-fat dairy products, and seafood; consuming
        foods with less sodium; and consuming foods with fewer calories from saturated fat and added
        sugars.
   • The Department released the MyPlate food icon, designed to serve as a reminder to help
        consumers make more healthful food choices. MyPlate prompts consumers to think about
        building a healthy plate at meal times and to seek more information at the new
        www.ChooseMyPlate.gov. ChooseMyPlate.gov provides practical information, resources, and
        tools for consumers, and for health professionals, nutrition educators, and the food industry to
        help consumers build healthier diets.
   • The Department continues to build its Nutrition Evidence Library by conducting evidence-based
        systematic review to evaluate scientific evidence to answer precise nutrition policy and nutrition
        education questions or series of questions.
   • The USDA continues to collaborate with partners to increase all communication of guidance
        messages related to the diet and physical activity. The USDA/CNPP Nutrition Communicators
        Network provides an opportunity for different communities and different organizations to
        join together in helping promote the Dietary Guidelines for Americans. The Nutrition
        Communicators Network includes over 3,000 community partners.



Analysis of Results
USDA did not meet its target for 2011. Transitions occurred with the release of the 2010 Dietary
Guidelines for Americans in January 2011 and ChooseMyPlate.gov in May 2011. During these
transitions, materials were being developed and electronic tools were being enhanced. In addition,
historical data on usage of educational materials and electronic tools show that schoolchildren, college
students, and educational professionals are a large audience for the use of the Guidelines materials and the
electronic toolkits. Thus, USDA expects a more positive result during non-transition years.




                                                  Page 13 of 57
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                        FINANCIAL STATEMENTS




  Annual Performance Goals, Indicators                2007        2008         2009         2010                Fiscal Year 2011
              and Trends                                                                                 Target       Actual       Result
4.2.1   Application and usage level of nutrition         2.6         3.2         3.5             1.7            3.0        1.7      Will Not
        guidance tools(billions of pieces of                                                                                          Meet
        nutrition guidance distributed) Baseline
        2006 = 1.5
Rationale for Met Range: The precision of USDA’s tracking system and forecasting allows for actual figures to be used to determine the
degree to which the 2011 target range of 2.8 to 3.2 billion is met. Thresholds reflect trends of “hits” at the former MyPyramid.gov, the new
ChooseMyPlate.gov, and NEL.gov, as well as the distribution of MyPlate and Dietary Guidelines print materials.


Data Assessment of Performance Measure 4.2.1
Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with MyPlate.gov, survey
analysis, and from inventory records of print materials.
Completeness of Data—Data related to MyPlate.gov are collected instantaneously, indicating the number of e-hits to the Web site and
the number of registrations to MyPlate Tracker. However, data for October-December 2010 were not available for all parts of the site due
to system problems. Estimates based on prior year performance were used for this portion of the performance period. For print materials,
data from national headquarters represent counts of what was distributed among divisions of FNCS.
Reliability of Data— The number of hits is instantaneously recorded, the online survey is continual and well-tested, and the number of
distributed print materials is tracked.
Quality of Data—The data are used to report on the success of the MyPlate Food Guidance System. Because of the simultaneous
recording of MyPlate.gov usage, and the thoroughness and continual nature of the customer satisfaction survey, usage and customer
satisfaction levels are a high-quality indicator of the degree to which USDA promotes, and customers respond to, interactive tools and
print materials designed to help Americans personalize their diets. With a change in the system used to record MyPlate.gov usage, the
Department will again be able to rely on the quality of the data to report whether performance goals have been met.


    Description of Actions for Unmet Measures

    Transitions occurred with the release of the 2010 Dietary Guidelines for Americans (DGA) in January
    2011 and ChooseMyPlate.gov in May 2011. In January 2011, the USDA and HHS released the 2010
    DGA, which made stakeholders hesitant to access or download materials that were going to be changed
    to reflect the new guide-lines. Similarly, stakeholders were reluctant to access or download tools or
    resources with the launch of the new MyPlate in mid-2011 until new materials were made available.
    During these transitions, materials were being developed and electronic tools were being enhanced.

    Challenges for the Future
    Individuals and families make choices every day about what they will eat and drink and how physically
    active they will be. Today, Americans must make these choices within an environment that promotes
    overconsumption of calories and discourages physical activity. The ability of existing nutrition guidance
    and promotional materials to achieve behavior change remains challenging. Physical activity and other
    lifestyle issues also significantly impact body weight and health.

    Crafting understandable, science-based, consistent, and consumer-friendly nutrition messages and nutrition
    education programs in ways that promote positive behavioral change to help people make better food choices will
    continue to be challenging. The relationships between choices people make and their attitudes towards and
    knowledge of diet/health links are key factors that must be addressed. The data that can address this information
    gap, however, are limited. Work is planned to develop helpful metrics to measure the success of communications
    and promotion programs.




                                                               Page 14 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS




SECTION 3. ANALYSIS OF SYSTEMS, CONTROLS, AND
LEGAL COMPLIANCE
The information in this section is consistent with the findings of the USDA OIG’s FY 2011 financial
statements audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance
Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of
assets. Internal control encompasses accounting and administrative controls. Such controls include
program, operational and administrative areas as well as accounting and financial management.

FNS has conducted its assessment of internal control and financial systems pursuant to Sections 2 and 4
of FMFIA, for the period ending September 30, 2011. Based on the results of this evaluation, FNS can
provide reasonable assurance that internal controls are operating effectively. For FY 2010, FNS had no
existing material weaknesses or significant deficiencies on which to report. No new material weaknesses
or significant deficiencies were identified for FY 2011.


Federal Financial Management Improvement Act (FFMIA)
Assurance
FNS has evaluated its financial management systems under FFMIA for the period ended September 30,
2011. Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for
the following sections:

        1.      Federal Financial Management System Requirements,
        2.      Applicable Federal Accounting Standards,
        3.      Standard General Ledger at the Transaction Level, and
        4.      Information Security, Policies, Procedures, and Practices

FNS has no areas of substantial non-compliance.


Assurance for Internal Control over Financial Reporting
FNS conducted its assessment of the effectiveness of internal control over financial reporting as of June
30, 2011, in accordance with USDA’s Implementation Guide and as required by the Office of
Management and Budget Circular A-123, Appendix A.

This assessment included an evaluation of entity level controls, risk assessments, process descriptions and
flowcharts, documentation of key controls, an assessment of the design of key controls, tests of
effectiveness of properly designed controls, summary of deficiencies and the development of corrective
action plans for control deficiencies.

                                                 Page 15 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




Management recognizes its responsibility for monitoring and correcting all control deficiencies. Based on
the results of the assessments, FNS provides reasonable assurance that internal controls over financial
reporting are operating effectively. We assessed the Financial Reporting, Grants Management, Funds
Control, and Funds Management Control business process cycles and the internal controls within those
cycles, and management certifies that there have been no changes in the operations of controls tested from
the sample selection date through June 30, 2011.

Additionally for this assessment period, the Department mandated an assessment of the reimbursable
agreements business process cycle. In the current and prior years, FNS has not identified the reimbursable
agreements cycle as an agency key business process in accordance with OMB A-123 guidelines and with
respect to financial statement materiality thresholds, it was therefore, never tested. During our assessment
of the agency’s internal controls (i.e. policies, procedures, and methods adopted by FNS management)
over reimbursable agreements, we determined that the process design was deficient and testing was not
completed. Thus, FNS will undergo a comprehensive review of the business process cycle and develop a
corrective action plan for OMB A-123 reporting in the subsequent period.

At the beginning of FY 2011, FNS had one existing control deficiency which was identified as part of a
Department-wide material weakness on Unliquidated Obligations. To date, the deficiency has not been
remediated. Therefore, a corrective action plan was submitted in the A-123 Document Tracking System.
No significant deficiencies or material weakness were identified under the General Computer Control
testing.

While FNS can currently provide reasonable assurance relating to internal controls, financial reporting
and financial systems for FY 2011, we have identified the following areas of concern that will require
continues vigilance and efforts relating to the operation of the Agency.

•   Improper Payments – Improving payment accuracy by reducing the over and under issuance of
    program benefits to program participants has been a top priority for the agency and an area of concern
    particularly for two of our largest programs in FNS (i.e., the Supplemental Nutrition Assistance
    Program (SNAP) and Special Nutrition Programs). The sharp increase in caseloads couples with
    limited Federal resources for monitoring and technical assistance and serious fiscal challenges
    resulting in State funding and staffing reductions have had a major impact on the handling of
    improper payments. Several monitoring tools and initiatives (i.e., a SNAP National Payment
    Accuracy Workgroup) are in place to address and mitigate some of the problems and issues that the
    agency faces when dealing with improper payments. The aforementioned workgroup has produced
    several tools to help State partners reach and maintain payment accuracy goals. However, the gains
    that have been attained are being severely challenged by diminishing resources experienced at the
    Federal and State level.

    Despite these challenges, in FY 2010, FNS announced on June 16, 2011 that the SNAP quality
    control payment error rate is 3.81 percent, another historic low. FY 2010 is the seventh year in a row
    that the rate is below 6 percent and represents more than a 57 percent decrease from the 8.91 rate for
    FY 2000.

•   Participation of SNAP Recipients and Authorized Retailers in Illegal Transactions (Trafficking)
    – Trafficking (e.g., the exchange of SNAP benefits for cash) committed by program recipients and
    authorized retailers is an area of concern. Such illegal transactions have a major impact on the
    integrity of the program. However, improved monitoring of stores through the use of EBT transaction
    data analysis and targeted investigations has helped maintain a low overall trafficking rate. On the

                                                  Page 16 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS



    other hand, participant compliance with SNAP requirements in the transaction and management of
    their benefits is an emerging area of risk to the Program. FNS is concerned that the misuse or sale
    (trafficking) of program benefits by recipients both weakens the nutrition assistance goals of the
    program and undermines public confidence. In addition to the legislative and regulatory remedies that
    are already in place, FNS is exploring other potential legislative actions that will help mitigate such
    violations.


•   USDA Data Center Consolidation and Expired Certifications and Accreditations (C&A) – In
    November 2010, the USDA OCIO directed FNS to mitigate several Agency computer systems to the
    National Information Technology Center (NITC) “Platform as a Service” (PaaS) no later than
    December 2011. However, due to budget constraints and implementation delays at USDA, NITC’s
    disaster recovery facility for the PaaS was not established until July 2011. This, combined with other
    technical challenges with the overall Data Center Consolidation implementation, directly impact
    OIT’s ability to complete the mitigations and the Certifications and Accreditations (C&A) activities
    for these systems. As a result, the USDA has not yet issued a current Authority to Operate (ATO) for
    the Electronic Disqualified Recipient Subsystem (eDRS), Food Program Reporting System (FPRS)
    and the Web General Support System (Web GSS). To mitigate this risk, OIT is now completing the
    C&A activities for these systems in their current environment prior to the migration to the NITC
    environment.


•   IPAS to Financial Management Modernization Initiative (FMMI) – IPAS is being migrated to
    FMMI, The Department’s new accounting system; however, no corporate strategy/plan has been
    established to fund the transition. IPAS is 12 years old and built on technologies that are difficult to
    support. Currently, FNS is reliant on a single contractor to support the system. IPAS must be
    upgraded in order to ensure its viability over the extended migration timeline. If the FMMI timeline is
    extended, we must continue to rely on IPAS and contractor support for the foreseeable future.

     In conclusion, FNS continues to struggle with diminishing staff resources. Any future reductions in
    FNS resources, any increases in responsibilities or change in program design without compensating
     Administrative resources increases may compromise the gains we have achieved in the areas of
    program integrity and FNS’ ability to adequately execute internal controls already put in place or to
    develop any additional controls that may be needed in the future.


OIG Audit Handling Process and Performance

USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and
operations. The results of this work are reports detailing, at a minimum, what was examined, findings that
should be addressed and recommendations for changes/improvements. Upon release of each final report,
FNS submits to OIG a written corrective action plan listing actions planned and dates by which these
actions will occur. Management decision is reached when OIG accepts FNS’s proposed corrective
actions.

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up
activities to assure that planned actions for each recommendation are implemented and completed. As this
occurs, FNS notifies the Department’s Office of the Chief Financial Officer (OCFO) and requests
concurrence that all actions described in the management decision agreement have occurred. Final action


                                                 Page 17 of 57
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                               FINANCIAL STATEMENTS



is achieved for each finding/recommendation when all actions necessary to fulfill the management
decision agreement have been performed.

Delays in reaching Final Action status most often occur for two categories of reasons:

    o   The amount of time needed to complete certain activities cannot be accurately estimated.
        Examples of these are:
        • Specific legislation, policy or guidance needs to be developed;
        • An investigation, negotiation, or administrative appeal action must be completed;
        • An automated system needs to be developed, implemented, or enhanced;
        • The results of additional monitoring or program review activity must be completed;
        • Disallowed costs must be collected;
        • Legal advice or opinion from the Office of General Counsel is needed; or
        • Certain external (state) or administrative actions must occur.

    o   Changes that could not be anticipated at the time management decision was reached:
        • A change must be made to the management decision agreement. For example, the agreed
           upon management decision calls on the Agency to publish a regulation, but Congress initiates
           a moratorium on regulations.
        • Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one
year past the management decision date. These interim reports show incremental progress toward
completion of planned actions, changes in planned actions, actual or revised completion dates, and
explanations for revised dates.


                    Audits Without Final Action More Than One Year Past the Management Decision Date

Audit Number        Date Issued             Audit Title                    Completion Date      Reason for Lack of Final
                                                                           For Actions (Est)    Action
27601-3-CH         3-22-96        Food Stamp Disqualified Recipient           12-31-11         Pending publication of
                                  System                                                       final regulation.
27601-32-CH       9-28-2004       Food and Nutrition Service                  11-15-11         Pending OCFO Approval
                                  Compliance with Improper                                     of Final Action Request
                                  Payments Requirements
27099-49-TE        9-4-07         Disaster Supplemental Nutrition             11-30-12         Pending publication of
                                  Assistance Program for Hurricanes                            final regulation.
                                  Katrina and Rita
27601-16-AT        3-31-08        Food Stamp Employment and                   6-30-13          Pending publication of
                                  Training Program                                             final regulation.
27010-19-SF       11-18-99        Smart Start, Inc.                           10-31-11         Pending collection of
                                                                                               claim and debt closeout.
27099-34-SF        8-17-07        Summer Food Service Program                 12-31-11         Pending collection of
                                  California and Nevada                                        claim and debt closeout.


In FY 2011, audit numbers 27010-3-KC, CACFP Wildwood; 27010-6-KC, CACFP Wildwood – Phase II; 27601-
18-CH, Monitoring of CACFP Providers in Minnesota; 27601-32-CH, Compliance with Improper Payments
Reporting Requirements; and 27099-68-HY, Electronic Benefits Transfer System State of Colorado were closed.
The Inspector General Act Amendments of 1988 requires the accompanying data for an annual report on the status
of audits.

                                                      Page 18 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




SECTION 4. IMPROPER PAYMENTS INFORMATION ACT
(IPIA)
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and
activities, 2) identify those that may be susceptible to significant improper payments, 3) estimate the
annual amount of improper payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that
exceeds both 2.5% of program payments and $10,000,000. For programs/payments that fit this
description, agencies must:

    •   Measure and reduce the improper payments,
    •   Identify the causes and take action to correct them,
    •   Implement necessary infrastructure to support activities,
    •   Develop proposals to obtain necessary infrastructure, and
    •   Hold managers accountable for results.

FNS assessed all food assistance programs as well as its Nutrition Programs Administration (NPA)
funding, which support FNS’s Federal administrative operations. Assessments were conducted in
conjunction with USDA-coordinated procedures. FNS, with OMB concurrence, has designated five
programs as susceptible to significant improper payments: the Supplemental Nutrition Assistance
Program (SNAP), the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
the Child and Adult Care Food Program (CACFP), the National School Lunch Program (NSLP) and the
School Breakfast Program (SBP). Improper payment measurement activities for each are described
briefly below.

    •   The Supplemental Nutrition Assistance Program (SNAP – formerly known as the Food Stamp
        Program), sampling and erroneous payment measurement processes, the accepted hallmark of the
        IPIA environment, has been a legislative mandate for more than 30 years. This process compares
        the certification criteria upon which a household’s benefit issuance is determined with the
        household’s circumstances at the time of issuance. All case results are accumulated by state. The
        state results are validated and the validated results are combined into a national cumulative
        (overpayments plus underpayments) error rate. No other payment lifecycle steps are included.
        Improper payment measurement activities predate the passage of the IPIA. SNAP processes
        were compliant with the intent of the law when it was passed. State agencies are required to
        establish and collect SNAP claims in accordance with the requirements found in the Program
        regulations. Debts that become delinquent are subsequently submitted by the State agencies for
        collection through the Treasury Offset Program. In past years, FNS has used target measures to
        gauge the success of recipient claims activity. Claims collection by States is ongoing, however,
        success in this area can be challenging, since collections are to a large extent tied to the ability of
        each individual State to pursue and collect erroneous payments. To complicate matters, State
        error rates fluctuate over time with changes in the economy and in the numbers of the recipient
        population

    •   In the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
        work is underway to report improper payment error rates on two segments of the program:
        certification error and vendor error.

            o   FNS first reported a vendor improper payment error rate in FY 2006. Over and under
                payment rates for FY 2005 were developed through a nationally representative study of a
                                                  Page 19 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



                probability sample of WIC vendors. Data from this study is then in conjunction with
                information on vendor investigations by State WIC Agencies to prepare a statistically
                estimated improper payment amount for each subsequent year. Until the next study is
                completed, the 2005 rates will be aged using data generated by State undercover
                investigators who attempt to make WIC purchases using valid WIC food instruments.
                The charges submitted by each sampled vendor are compared to the undercover purchase
                activity to estimate overcharging, and other sanctionable violations. Case results are
                accumulated by State and used to age the estimates.

            o   Certification rate: WIC households are interviewed and compared to the certification
                criteria upon which a household’s benefit issuance was determined with the household’s
                circumstances at the time of issuance. However, delays in the study will result in data
                collection being delayed until FY 2009. A preliminary estimate of erroneous payments
                associated with certification actions will be available in 2011.

Current statutory authority allows USDA to recover improper payments from state agencies when
identified through reviews, audits or other operational oversight activities. This authority does not
support collection of improper payments identified on the basis of a statistical sample or estimation
procedure, as is used to develop the national estimates of improper payments reported here.

    •   The Child and Adult Care Food Program (CACFP) has three distinct parts: Child Care
        Centers, Adult Day Care facilities and Family Day Care Homes (FDCHs). Overall program
        funding is provided to state agencies which provide funds to sponsoring organizations to pay for
        claims for reimbursable meals served at provider sites. Sites can be as large as an institution or as
        small as a household. Each part of CACFP has its own reimbursement structure.

        Payments and claim information are transferred among FNS, State agencies, program sponsors
        and program sites; each such transaction represents a risk for improper payment. Because
        requirements vary significantly for each different type of program sponsor and site, a
        comprehensive assessment of improper payments is extremely complex.

        The original plan was to develop a program-wide study which would examine reimbursements
        for meals served and develop program error measurements that complied with the requirements
        of the IPIA. Because of the complexities of the program, FNS estimated that it would cost $20
        million to measure improper payments at the precision required by IPIA. This amount has not
        been appropriated.

        FNS has identified the FDCH component of this program as potentially high risk, and measures
        error in this part of the program in lieu of the unfunded comprehensive measure. FDCHs
        participate in CACFP through public or private nonprofit sponsoring organizations. FDCH
        improper payments are most likely caused by sponsor error in determining a participating home’s
        reimbursement tier (tiering error) or by FDCH error in reporting the number of meals which are
        eligible for reimbursement (claiming error).




                                                  Page 20 of 57
                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                 FINANCIAL STATEMENTS



Two activities are underway which provide information on improper payments in the
FDCH component of CACFP. A third activity is being pilot tested.

   o   CCAP – In the spring of 2004, FNS began the Child Care Assessment Project (CCAP).
       This project was designed to measure the effectiveness of efforts to improve the integrity
       of CACFP family day care homes and provide information from a broadly representative
       national sample of sponsors and providers. Data were collected by the Food and
       Nutrition Service (FNS), in cooperation with State agencies and sponsors administering
       the Child and Adult Care Food Program, during the period 2004-2007. The CCAP
       process was designed to measure whether the two interim management improvement
       rules issued by FNS in 2002 and 2004 had been properly implemented, and whether the
       rules had effectively addressed the serious program management and integrity problems
       that had been uncovered in the 1990s. In the three and one-half years during which
       assessments were conducted, FNS gathered the program records of 58 family day care
       home (FDCH) sponsors and over 3,000 of their providers. A final report was issued in
       July 2009. Overall, the findings indicated that the serious problems which had prompted
       the previous legislative and regulatory action were not common in 2004-2007. However,
       some concerns were identified, including the accuracy of recordkeeping by family day
       care home providers and the use of the serious deficiency process by program sponsors.
       FNS is currently developing an action plan to address those CCAP findings which
       suggest a need for additional measures to improve Program administration in the FDCH
       component of CACFP at the local, State, and Federal levels. This action plan will take
       into account the very real challenges of providing Federally-supported nutrition
       assistance in approximately 140,000 private residences across the country. Therefore,
       any changes to Program procedures and requirements recommended in the action plan
       will consider this unique aspect of administering the CACFP

   o   Sponsor error – FNS has developed an annual sponsor tiering error measure and tested
       it. CACFP sponsors are responsible for determining whether family day care homes
       receive meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). In FY 2005,
       the first annual data collection began to determine a nationally representative sponsor
       tiering determination error rate. Results for FY2005, FY2006 and FY2007 have been
       reported. FY 2008 estimates were available in August 2010.

   o   Claiming error - In its 2006 measurement plan, FNS proposed to test the feasibility of
       estimating the risk of claiming errors. FNS proposed to select a random sample of
       sponsoring organizations and, from each, use a random selection of the sponsor’s
       monitoring visits of FDCHs. FNS would compare the number of meals claimed with the
       number of children observed at the time of the visit. If feasible to conduct, it was
       assumed that this comparison would provide an estimate of the risk of overpayment.

       FNS staff collected data in 11 family day sponsors around the country, gathering a
       random sample of 268 FDCH sponsor monitoring visit records. For each, FNS gathered
       the FDCH’s meal claim data for the month of the monitoring visit and the month before.
       Results were analyzed and released in a report in May 2009; FNS found that the tested
       method does not provide a reliable estimate of family day care meal claiming error.

       FNS developed and pilot tested additional alternatives to determine the feasibility of
       estimating the risk of claiming error by methods such as direct observation of FDCHs or
       by contacting parents to determine if children were really present at a FDCH when

                                        Page 21 of 57
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                         FINANCIAL STATEMENTS



               claimed. This test found that parent recall surveys are worthy of further evaluation as the
               method most likely to yield reliable information on improper payments related to meal
               claiming errors. A report on the feasibility study was released in September 2009.

       Improper payments identified through the course of a review, audit, or through other operational
       oversight activities can be recovered either through direct billing or through an offset of future
       program payments earned. Current statutes only provide authority to recover improper payments
       identified through reviews, audits or other operational oversight activity. Program regulations
       allow States to waive claims against a single institution for improper payments of up to $600 in a
       single fiscal year. CACFP does not have authority to pursue collection of improper payments
       identified on the basis of a statistical sample or estimation procedure.

   •   The National School Lunch Program and School Breakfast Program do not have a sampling
       and erroneous payment measurement process comparable to SNAP. Instead, FNS relies on
       nationally representative studies to produce estimates of erroneous payments. The most recent
       study was USDA’s NSLP/SBP Access, Participation, Eligibility and Certification Study reported
       in 2007, which examined improper payments in a nationally-represented sample of schools..
       Contingent upon available funding, FNS will produce an erroneous payment measurement by
       updating this study every five years. Also, as part of this same project, FNS developed a
       methodology that uses data available from other sources to estimate erroneous payments due to
       certification error on an annual basis. Current statutory authority allows USDA to recover
       improper payments from state agencies when identified through review, audits or other
       operational oversight activities. Current statutory authority does not support collection of
       improper payments identified on the basis of a statistical sample or estimation procedure, as is
       used to develop the national estimates of improper payments reported here.


1. Policy Options for Addressing Improper Payments:

FNS recognizes its fundamental responsibility to promote effective program management and reduce and
prevent improper payments. But identifying strategies to address this problem is complicated by the
linkages between an environment with management controls, its operation in thousands of schools
balancing multiple responsibilities, and the need to avoid barriers to free or reduced price meals for
eligible children. To date, proposed strategies have generally been unacceptable to policymakers and
other stakeholders unless they:

   •   Improve payment accuracy without compromising access for low-income families. A process that
       keeps eligible children from participating would undermine the program.
   •   Avoid significant new burden on schools. Many schools consider the program burdensome now;
       adding burden without offsetting incentives could discourage schools from participating.
   •   Are cost-effective. Improving accuracy is potentially resource-intensive; policymakers must not
       create a process that increases net program costs.
   •   Answer the needs of other users of program data, which often use certification data to distribute
       millions of dollars in other kinds of benefits to schools. As these needs contribute to the problem,
       a solution may also require new commitments from those users.

Program changes to address NSLP payment accuracy; some of which are currently being implemented as
a result of the Healthy Hunger- Free Kids Act of 2010.



                                                Page 22 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




Certification Error

As reported in USDA’s FY 2010 Performance and Accountability Report, there were approximately $840
million in improper payments in FY 2009 arising from misclassification of student eligibility for the
appropriate level of per-meal federal payment (free, reduced-price, or paid). About two-thirds of this
“certification error” results from the misreporting of income by households on Program applications. The
balance is due to administrative error at the school or school district.

    •   Misreporting Error – Currently, the application process for school meals relies on attestation by
        households of their income, rather than any documentation by the applicant or use of third-party
        data to verify claims at certification. Policy reforms to address certification error arising from
        income misreporting by families have focused on requiring information beyond the applicant’s
        claim to support the application. To date, the most successful of these have been categorical
        eligibility and direct certification, which rely on participation in means-tested programs that do
        require income documentation, such as the Supplemental Nutrition Program (SNAP), to ensure
        eligibility for free meals.

        Steps beyond this, to require documentation or increase verification after certification, have
        largely been opposed in Congress and the advocacy community due to concerns that such
        requirements would reduce access to meals by low-income families.

    •   Administrative Error – These kinds of certification errors reflect mistakes made by school
        personnel in processing applications – misreading the attested income information, or applying
        the eligibility standards incorrectly. Traditionally, school districts have had significant discretion
        regarding their internal procedures for application review.

Significant reforms to the certification process require legislative action; and some legislative changes in
this area were included in the Healthy, Hunger Free Kids Act of 2010 (HHFKA); these are noted when
relevant in the descriptions of the options below:

Increase verification: Currently, a small number of household applications (up to 3%) are selected for
verification of income after approval. Free or reduced price eligibility status may be changed based on
the documentation received, and those who do not respond to the verification request have their eligibility
revoked.

During the 2004 reauthorization, the Administration informally offered a proposal for “graduated”
verification, which would require larger verification samples (25% or more) in school districts which
found significant misreporting in the initial sample. Opponents of expanded verification cited an FNS
analysis which found high rates of “nonresponse” to the request for income documentation, resulting in
loss of certification, and further found that approximately half of nonrespondents were eligible for free or
reduced price benefits. Moreover, a demonstration of graduated verification did not show a measurable
reduction in improper payments. In the end, this proposal was rejected on a bipartisan basis, due to
concerns about the impact on eligible families, and Congress prohibited school districts from verifying
more than the statutorily-required 3 percent, making that requirement both a minimum and a maximum.

We could reconsider the graduated verification approach tested in the pilots, or options such as removing
or increasing the 3 percent ceiling. However, as with up-front income documentation, the current impact
of any increased verification requirements on program costs or on eligible families is not clear, as direct
certification and changes to the verification process in recent years have likely impacted the

                                                  Page 23 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                            FINANCIAL STATEMENTS



characteristics of the applications subject to verification. But the requirement of an affirmative response
to the documentation request would almost certainly lead some families, including some eligible families,
to lose benefits due to non-response. As with the up-front documentation requirement, additional
resources would be required at the SFA level to conduct additional verification activities.

Eliminate the reduced-price category: The reduced-price benefit category (between 130 and 185 percent
of the poverty level) is considerably more prone to error than the free category, with approximately one-
third of students approved for reduced price actually eligible for free meals and another quarter only
eligible for the paid reimbursement level. Eliminating this category by making free meals available to
these children would eliminate the first category of errors, and also simplify the application approval
process at the school level to some degree.

This option has been strongly promoted by some in the advocacy community in prior years as an
administrative reform that would also increase access to meals for families that may not be able to afford
the charges (up to 40 cents) for reduced-price meals. And authority exists for a pilot to eliminate the
reduced-price category (though it has never been funded). However, the cost of this option is significant.
Making reduced price meals free will increase Federal reimbursements for lunch and breakfast by an
estimated $250 million in FY 2012 due to the increased costs to the Federal government for meals that are
already being served. However, if eliminating the need to pay even a nominal amount encourages more
frequent participation by these students, the annual cost could be significantly in excess of this amount.

Establish universal free meal programs: Reimbursing all meals at the free rate would, by definition,
eliminate the $840 million in estimated payment errors associated with the eligibility certification process.
This approach would also be welcomed by many in the school nutrition and anti-hunger community, as it
would simplify the program; underscore the importance of nutritious school meals for all students, and
eliminate stigma associated with receipt of free or reduced-price meals.

However, because this option is so costly, it is not likely to be feasible in the current fiscal environment.
When last estimated, it was found that the cost of providing universal free school meals would about
double program costs from $12.6 billion in FY 2009 to $25 billion.

Enhance local requirements for review of applications: As noted, school districts traditionally have had
significant discretion regarding their internal procedures for application review. However, the HHFKA
requires school districts at high risk for error (as defined by USDA) to conduct a second-level review of
applications prior to notifying families of their eligibility status. FNS will implement this provision
through proposed regulation in early 2012. In addition, the frequency of the required State review of
local operations will be increased from once every five years to once every three years.

Expand the pool of students certified using non-application based methods: Direct certification with
SNAP, FDPIR and TANF records has been shown to be a highly accurate method of identifying eligible
students. The HHKFA contained numerous provisions designed to increase direct certification, including
rewarding States for improvement in direct certification rates; and establishing a large-scale
demonstration project for direct certification with Medicaid.

In addition, the HHFKA provides new alternatives to paper application systems in low-income areas,
which will reduce the number of paper applications that are processed manually and establish eligibility
criteria based on information other than household reporting.




                                                  Page 24 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




Non-Certification Error:

Improper payments of approximately $614 million were due to the submission of claims for payments
reflecting inaccurate counts of reimbursable meals. About half of these non-certification errors result
from meals being claimed for reimbursement which do not actually meet Federal standards for the types
and amounts of food served. The other half arise from errors in the aggregation and submission of meal
service data to school districts and State agencies.

Options for reducing non-certification error focus on strengthening capacity at the local level to avoid
errors, and strengthening oversight by State agencies to correct errors prior to payment of claims. Both
approaches require increased authority and increased administrative resources, some of which were
provided by the HHFKA:

Training of school food service personnel: Improved training at the local level would focus on
improving understanding of the requirements associated with a reimbursable meal. The HHKFA
establishes requirements and modest funding for such training. FNS is currently working in collaboration
with professional food service organizations to develop on-line resources. However, improvements in
error associated with recognizing reimbursable meals will be made more difficult by the anticipated
implementation of. major changes in meal requirements anticipated during the next several school years.

Improved technology for counting and claiming of meals: While automated tools for counting and
claiming meals exist, they have not been consistently utilized, at either the local or State level. Currently,
there is no targeted local level funding for this purpose. At the State level, $4 million per year is available
for grants to improve State oversight, including systems that utilize data mining concepts to identify
districts at high risk for errors. FNS has in recent years focused these funds on technology-focused
approaches which allow States to identify and correct counting and claiming errors at the school district
level and target appropriate action. However, to date, such systems are still largely in the developmental
stages and have not been systematically evaluated.

The primary barrier to this approach is cost for evaluation and funding of local-level technology. We
believe that $20-30 million annually would support evaluation efforts at the State and local level (see
section 3 below). While we do not have a precise estimate of the cost of funding improved technology at
the local level, we believe an investment of several hundred million dollars in targeted grant funding
would be required.

Improved oversight and enhanced consequences for repeated failure to correct identified problems: As
noted, the HHFKA reduced the cycle for State reviews of local school operations from five years to three.
These reviews include noncertification as well as certification error. In addition, the HHFKA provided
FNS with new authority to impose fines and penalties against States and local program operators for
repeated or willful noncompliance. While this authority can be used to address all types of program error,
it is likely that it will be most useful in dealing with serious counting and claiming problems for which
little recourse previously existed. USDA will implement this requirement via proposed regulation in
early 2012.

Conceptually, systematic penalties for States with performance below required standards in this area (or
rewards for those with outstanding performance) are another option for consideration. However, this
would require the development of measurement systems yielding reasonably accurate State-level
estimates, which are currently not in place. The Quality Control system currently used in SNAP costs in


                                                  Page 25 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



the area of $200 million per year to operate. We estimate that a similar system for school meals would be
at least as costly, given the greater diversity and decentralization of the program at the sub-State level.

Pilot a Recovery Auditing Process: Utilize the upcoming USDA contract for recovery auditing to
conduct a pilot study for NSLP to determine if such a process would be feasible and cost-effective. Cost
would vary depending on the scale and scope of the pilot.


2. Measurement Issues

USDA identified three actions that we intend to pursue in this area:

Repeat and/or Enhance National Study: FNS completed the initial nationally-representative estimates
of NSLP improper payments with the 2007 Access, Participation, Eligibility and Certification (APEC)
study, which examined School Year 2005-06. To date, the Agency has sought funding to repeat the study
in the budget process, but has not received it. USDA will re-program funds to promptly launch APEC II
to allow data collection in School Year 2012-13 (see under Proposed Short Term Strategies, below). We
are also interested in potential changes to the study design to make data on certain high-risk program
components available sooner, to collect State-specific information in a small number of States, and to
enhance the data collected to improve modeling of error-prone schools or districts.

Explore Additions to the Annual Estimation Model: FNS uses an econometric model to “age” the data
from the APEC study to reflect changes in program size, as well as changes in certification accuracy,
based on State-reported administrative data. One of the major sources of non-certification error, the
process of identifying reimbursable meals and collecting and reporting meal counts for reimbursement
claims, is not currently built into the model because of data limitations. The Agency has placed a major
focus on administrative efforts to improve counting and claiming, but is unable to model the impact of
these efforts over time. To the extent that improvements in counting and claiming may have occurred, the
annual estimates may overstate the actual level of payment errors.

FNS will explore the potential of using data from the Coordinated Review Effort (CRE) process, which
includes information on counting and claiming, to improve its modeling. Because the CRE is a Federal-
State oversight mechanism for local schools and CRE data is not designed to be representative, this effort
may require changes to that process to make the data usable, and thus may require significant time and
resources, and an increase in reporting burden.

Identify and Measure Technical vs. Substantive Errors: OMB noted that one of the strategies frequently
used by Federal agencies in reporting improper payments is to distinguish between substantive errors and
technical errors. The latter may include:
• payments that were substantively appropriate in amount and to the correct payee, but were incorrect
    because of application problems or other minor violations of program rules;
• payments that may have been to a correct payee, but incorrect in amount, for which the whole
    payment is reported as entirely incorrect; and
• payments that are below a threshold or tolerance of errors that can be disregarded.

The APEC study leaves out the first two categories of errors, but provides no threshold of error levels.
One question that remains open is whether thresholds that may be different from program policy are
acceptable to incorporate into measurement methods.



                                                  Page 26 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                            FINANCIAL STATEMENTS



FNS will identify one or more school-level thresholds for improper payments, and seek to analyze
existing data to determine how such thresholds would change the substantive error rate. If existing data
does not permit this differentiation, we will incorporate the necessary data elements into the APEC II
study to allow this calculation.

3. Proposed Short-Term Strategies

Obtain funding for measurement improvements: FNS will re-program funds to promptly launch APEC
II to allow data collection in School Year 2012-13. We will also seek to enhance the study to improve
timeliness and collect additional information; this will increase the overall cost of the project by a yet-to-
be-determined amount.

Request $20-30 million to pilot test and evaluate technology-based program management tools: FNS
recommends the establishment of a mandatory annual funding stream in the budget to provide consistent
resources to develop and evaluate program integrity tools. This resource would be used to fund and
evaluate local-level pilots of comprehensive counting and claiming systems, and analysis techniques
(such as data mining). It would also be available to evaluate the effectiveness of State-level oversight
systems. These efforts would inform development of future proposals for technology enhancements
targeted at the local level, as well as informing future use of existing funds for State systems.

Implement HHFKA provisions: As noted, the HHFKA provides authority for a number of policy
changes which will have an impact on improper payments. FNS will continue to move expeditiously to
implement these provisions.

Additional information on FNS’ Improper Payments Information Act (IPIA) activities can be found in the
USDA Performance and Accountability Report.

The tables below summarize the results of measurement activities for FNS programs identified as subject
to a significant risk of improper payments. The first table shows improper payment rates for the last two
years and the second table reflects future reduction targets. All results reported each year represent
measures of outlays and program activity for the previous year.




                                                  Page 27 of 57
                                      FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                   FINANCIAL STATEMENTS



            Preliminary Data as of 7/31/11 – FNS Measures for IPIA Reporting
                      2011 Performance and Accountability Report
                           Improper Payment Sampling Results ($ in millions)
                                                       Results                Results
                                                 Reported in FY 2010    Reported in FY 2011
                         Program
                                                Outlay                 Outlay
                                                         IP%     IP$             IP%    IP$
                                                   s                      s
  Supplemental Nutrition Assistance Program, FNS                50,360          4.36%       2,195         64,705      3.81%     2,465
  National School Lunch Program, FNS                             8,925         16.28%       1,453         10,739     15.98%     1,716
  School Breakfast Program, FNS                                  2,534         24.87%         630          2,824     24.96%       705
  Women, Infants and Children, FNS
    Total Program                                                6,480            N/A           N/A        4,648       N/A       N/A
    Certificatión Error Component                                6,480            N/A           N/A        4,648       N/A       N/A
    Vendor Error Component                                       6,480         1.17%             76        4,648       N/A       N/A
  Child and Adult Care Food Program, FNS
    Total Program                                                2,461            N/A           N/A        2,521        N/A      N/A
    FDC Homes – Tiering Decisions                                  911          .99%              9          896     1.53%       13.7
    FDC Homes – Meal Claims                                        911            N/A           N/A          896        N/A      N/A




   Detailed Breakout of Improper Payment Rates reported in FY 2011 ($ in millions)
                                  Total                Over-       Under-
                                             IP%                              Other
                                Payments             payments    payments
 Supplemental Nutrition Assistance Program,
 FNS                                                64,705           3.81%                3.05%               .75%             N/A
 National School Lunch Program, FNS                10,739           15.98%                6.87%              2.23%             N/A
 School Breakfast Program, FNS                          2,824          24.96%             7.09%              2.08%             N/A
 Women, Infants and Children, FNS
   Vendor Error Component                           4,648            N/A                  N/A                  N/A             N/A
 Child and Adult Care Food Program, FNS
   FDC Homes – Tiering                                896           1.53%                 1.36%              0.17%             N/A




                          Improper Payment Reduction Outlook ($ in millions)
                            FY 2011 Reporting      FY 2012 Reporting      FY 2013 Reporting
     Program
                          Outlays    IP%   IP$   Outlays    IP%   IP$   Outlays    IP%   IP$
Supplemental Nutrition
Assistance Program,
FNS                          64,705       3.81%     2,465          76,030         5.0%                                 5.0%
National School Lunch
Program, FNS                 10,739       15.98%    1,716          10,456        15.37%                     11,981    15.10%
School Breakfast              2,824       24.96%      705
Program, FNS                                                        2,959        23.27%                      3,307    23.36%         773
Women, Infants and
Children, FNS                 4,648       N/A        N/A            7,467         .77%            57         5,242     1.07%          56
Child and Adult Care
Food Program, FNS               896       1.53%      13.7                908      .87%                8        924     1.43%     13.2




                                                         Page 28 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS




SECTION 5. LIMITATIONS OF FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the Food and Nutrition Services (FNS), an agency of the United States Department of
Agriculture, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from the books and records of FNS in accordance with GAAP for Federal entities and the formats
prescribed by OMB, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government,
a Sovereign entity.


SECTION 6. FINANCIAL STATEMENTS HIGHLIGHTS AND
ANALYSIS
FNS’ FY 2011 financial statements reflect the nutrition assistance programs’ responsiveness to the
Nations’ economic performance. By design, the level of activity within the nutrition assistance programs
varies with the level of need experience by the populations we serve. A key determinant of this level of
need is the condition of the economy. In FY 2010 the economy performed weaker than was anticipated by
the President’s FY 2010 budget request. As a result, program participation and costs, as reflected in the
financial statements are, on average, higher than was anticipated.

In accordance with the US Standard General Ledger and the Treasury Financial Manual 1TFM 4700, in
FY 2008 FNS clarified its reporting of the Grant Award (GAD) Accrual. FNS performed an analysis of
the GAD Accrual and determined that the GAD Accrual consisted of Entitlement Benefits and Non
Entitlement Benefits. For the FY 2011 Financial Statements FNS will report Entitlement Benefits as
“Benefits Due and Payable” and report Non Entitlement Benefits as “Other Liabilities” on the Balance
Sheet and related footnotes. The classifications of these accruals have no impact on the amounts reported
for Total Liabilities.

Balance Sheet
                                          2011                             2010
                                Dollars (mil)      Percent        Dollars(mil)  Percent
Fund Balance With Treasury             17,511       95.98%             20,851   96.31%
Accounts Receivable                       324        1.78%                310    1.43%
General PP& E                                 1      0.01%                   2   0.01%
Other                                     407        2.23%                486    2.25%
  Total Assets                         18,243      100.00%             21,649 100.00%
Accounts Payable                            8        0.01%                 2     0.01%
Employee Benefits                           6        0.03%                 6     0.03%
Benefits Due and Payable                3,500       19.19%             3,356    15.50%
Other Liabilities                       1,677        9.19%             1,625     7.51%
  Total Liabilities                     5,192       28.46%             4,989    23.05%
Unexpended Appropriations              12,775       70.03%            16,393    75.72%


                                                  Page 29 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                             FINANCIAL STATEMENTS



Cumulative Results of
Operations                                 276       1.51%                267        1.23%
  Total Net Position                    13,051      71.54%             16,660       76.95%
Total Liabilities & Net
Position                                18,243        100%             21,649        100%




The Balance Sheet composition (comparative composition of account balances to the totals) remained
substantially the same in FY 2011 as the prior year. The vast majority of FNS assets are held in Fund
Balance with Treasury (FBWT) - approximately 96% in FY 2011 and FY 2010. This cash-like account
largely represents the aggregate amount of funds in the FNS accounts with the U.S. Treasury from which
the agency is authorized to make expenditures and pay liabilities. As financial statement Note 3 presents,
a substantial portion of the fund balance is unavailable as they are associated with either expired years or
are contingency funds which were not made available.

“Other assets” remained at levels consistent with the prior year. Accounts receivable levels also remained
consistent with the prior year.

Benefits Due and Payable represents the largest liability of the agency, typically representing amounts
that are currently payable to grantees on Entitlement Benefits Programs. The FY 2011 and FY 2010 Net
Position of the agency is concentrated in Unexpended Appropriations.

Statement of Net Cost
                                      2011                                   2010
                            Dollars(mil)       Percent            Dollars(mil)        Percent
Gross Cost                        103,242      100.05%                    95,590       100.05%
Less: Earned Revenue                 (57)        -0.05%                      (51)        -0.05%
Net Cost of Operations            103,185      100.00%                    95,539       100.00%



The FNS mission addresses USDA Strategic Goal 4 “To Improve the Nation’s Nutrition and Health”. All
program costs are reported under that strategic goal. Gross Costs increased from $95,590 million in FY
2010 to $103,242 million in FY 2011, reflecting the overall increase in programs participation levels. .

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less
than one percent), in both fiscal years. Earned revenue largely represents funds from the State Option
Supplemental Nutrition Assistance Program authorized under P.L. 105-18. States participating in this
program (California, Wisconsin, and Nebraska) reimburse FNS for benefits paid to legal immigrants who
do not qualify for the Federal Supplemental Nutrition Assistance Program to whom the States have
“opted” to provide benefits. Additional earned revenue is received from other Federal agencies for
reimbursement of expenses related to information technology services and facility-related services
including WBSCM, Commodity Improvement Initiative and Whole Grain Study.

The Net Cost of Operations increased from $95,539 million in FY 2010 to $103,185 million in FY 2011.



                                                  Page 30 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



Statement of Changes in Net Position

                                          2011                                   2010
                                 Dollars(mil)  Percent            Dollars(mil)          Percent
Cumulative Results of
Operations
Beginning Balance                         267                               285
Appropriations Used                    97,031     94.03%                 87,434            91.53%
Transfers In (Out) without
Reimbursements                          5,407      5.24%                  7,036             7.37%
Other Budgetary Financing
Sources                                    0       0.00%                      0             0.00%
Imputed Financing                        755        .73%                  1,050             1.00%
  Total Financing Sources            103,193     100.00%                 95,520           100.00%
Less: Net Cost of Operations         103,185                             95,539
Ending Balance                           276                                267
Net Change
                                            8                               (18)
Unexpended Appropriations
Beginning Balance                      16,393                             17,008
Appropriations Received                99,116                             87,132
Adjustments                           (5,706)                              (313)
Appropriations Used                  (97,031)                           (87,434)
Total: Financing Sources              (3,618)                              (615)
Ending Balance                         12,775                             16,393


Total Net Position                     13,051                            16,660



The Statement of Changes in Net Position explains the changes in the two components of Net Position of
the Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended
Appropriations.

The FY 2011 appropriations used was $97,031 million, increased $9,597 million from FY 2010, based on
actual participation levels and food costs.

Cumulative Results of Operations increased $9 million, from $267 million in FY 2010 to $276 million in
FY 2011, as the net cost of operations is greater than the total financing sources. The proportional
distribution of financing sources among appropriations, transfers, and imputed financing remained
relatively unchanged from FY 2010 to FY 2011. Transfers are largely made up a single large transfer
made in the annual appropriations act from funds available to the Secretary under Section 32 of the Act of
1935 for support of Child Nutrition programs. Additionally, FNS received transfers from the Commodity
Credit Corporation for the Senior Farmers Market Program. Transfers represented approximately eight
percent and ten percent of total financing sources in FY 2011 and FY 2010 respectively.

Unexpended Appropriations decreased from $16,393 million in FY 2010 to $12,775 million in FY 2011
as more carryover appropriation balances were expended in the current year. Adjustments increased from

                                                  Page 31 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS



$313 million in FY 2010 to $5,706 million in FY 2011 are due to permanent reductions and cancellations
of expired accounts.

Statement of Budgetary Resources

                                         2011                               2010
                                Dollars(mil)  Percent        Dollars(mil)           Percent
Budgetary Resources
Beginning Unobligated
Balance                               14,580     12.73%            15,473              14.01%
Recoveries                             1,237      1.07%               990               0.90%
Appropriations                        99,116     86.45%            87,130              78.89%
Collections                              136       .12%               129               0.11%
Change in unfilled customer
orders                                     2      0.00%                 0               0.00%
Transfers                              5,410      4.72%             7,038               6.37%
Less: Temporarily Not
Available                              - 125       -.11%                 0              0.00%
Less: Permanently Not
Available                            -5,706      -4.98%              -313               -.28%
Total Budgetary Resources           114,650     100.00%           110,447             100.00%

Status of Budgetary
Resources
Direct Obligations                  103,867      90.59%            95,816              86.75%
Reimbursable Obligations                 57       0.05%                51               0.05%
Apportioned- Unobligated              4,179       3.65%             3,775               3.42%
Unobligated- Not Available            6,547       5.71%            10,805               9.78%
Total: Status of Budgetary
Resources                           114,650     100.00%           110,447             100.00%

Net Outlays                         102,161      89.11%            93,822              84.95%




The Statement of Budgetary Resources displays the source of all budgetary resources for the fiscal year as
well as the status of those resources as of the end of the fiscal year.

Appropriations were increased from $87,130 millions in FY 2010 to $99,116 million in FY 2011. Total
budgetary resources were higher than prior year due to increase in Appropriations for the year. FNS had
$114,650 million in total budgetary resources during FY 2011, largely from appropriations received, but
also from recoveries and available unobligated balances from prior periods. In addition FNS has included
in the FY 2011 financial statements the ARRA supplemental appropriations used to stimulate the U.S.
economy. The ARRA appropriations for FY 2011 totaled $12.2 billion

Permanently Not Available increased from $313 million in FY 2010 to $5,706 million in FY 2011 is due
to permanent reductions and cancellations of expired accounts.



                                                 Page 32 of 57
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                         FINANCIAL STATEMENTS




At fiscal yearend 2011, most ($103,867) million or 91% of those resources were obligated, though $4,179
million or 4% remained unobligated and available, and another $6,547 million (6%) was unobligated and
not available (including apportioned unavailable Contingency Reserve funds for WIC and SNAP). In FY
2011, Net Outlays represented 89% of Total Budgetary Resources, compared to 85% in FY 2010.




                                                Page 33 of 57
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




                                         Food and Nutrition Service

                                CONSOLIDATED BALANCE SHEET
                            As of September 30, 2011 (CY) and 2010 (PY)
                                        (Dollars in Millions)

                                                    FY 2011                           FY 2010
                                                     (CY)                              (PY)
Assets (Note 2):
    Intragovernmental:
              Fund Balance with
              Treasury                      $    17,511                       $    20,851
              Other (Note 6)                        407                               486
    Total Intragovernmental                      17,918                            21,337
    Accounts Receivable, net (Note 4)               324                               310
    General Plant, Property, and
    Equipment, net (Note 5)                           1                                2
    Other (Note 6)                                   -                                  -
Total Assets                                $    18,243                       $    21,649

Liabilities (Note 7):
    Intragovernmental:
              Accounts Payable              $         1                       $        -
              Other (Note 8)                         40                               36
    Total Intragovernmental                          41                               36

    Accounts Payable                                  8                                2
    Federal Employee and Veterans
    Benefits                                          6                                6
    Benefits Due and Payable                      3,500                             3,356
    Other (Note 8)                                1,637                             1,589
Total Liabilities                                 5,192                             4,989

Net Position:
    Unexpended Appropriations -
    Other Funds                                  12,775                            16,393
    Cumulative Results of Operations -
    Other Funds                                     276                              267
Total Net Position                          $    13,051                       $    16,660
Total Liabilities and Net Position          $    18,243                       $    21,649

                   The accompanying notes are an integral part of these statements.

Note: CY denotes Current Year; PY
denotes Prior Year.




                                                Page 34 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          FINANCIAL STATEMENTS




                                      Food and Nutrition Service
                           CONSOLIDATED STATEMENTS OF NET COST
                     For the Years Ended September 30, 2011 (CY) and 2010 (PY)
                                         (Dollars in Millions)


                                                           FY 2011                        FY 2010
                                                            (CY)                           (PY)
Program Costs:
   Strategic Goal:
       Improve the Nation's Nutrition
       and Health:
                   Gross Costs
                   (Note 10)                  $    103,242                          $ 95,590
                   Less: Earned
                   Revenue                                57                             51
                   Net Program
                   Costs                           103,185                           95,539

Net Cost of Operations                        $    103,185                          $ 95,539



                   The accompanying notes are an integral part of these statements.




                                                  Page 35 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




                                  Food and Nutrition Service
                 CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                         As of September 30, 2011 (CY) and 2010 (PY)
                                     (Dollars in Millions)

                                                      FY 2011                        FY 2010
                                                       (CY)                               (PY)
Cumulative Results of Operations:
Beginning Balance                           $         267                       $        285
Beginning Balance, as adjusted                        267                                285

Budgetary Financing Sources:
  Appropriations Used                              97,031                             87,434
  Transfers in/out without
  reimbursement                                     5,407                              7,036
  Other                                                 -                                  -

Other Financing Sources (Non-
Exchange):
  Imputed Financing                                   755                              1,050

Total Financing Sources                           103,193                             95,520
Less: Net Cost of Operations                      103,185                             95,539
Net Change                                              8                                (19)

Cumulative Results of Operations                      276                               267

Unexpended Appropriations:
Beginning Balance                                  16,393                             17,008
Beginning Balance, as adjusted:                    16,393                             17,008

Budgetary Financing Sources:
  Appropriations Received                          99,116                             87,130
  Appropriations Transferred in/out                      3                                2
  Other Adjustments                                 (5,706)                            (313)
  Appropriations Used                             (97,031)                           (87,434)
  Total Budgetary Financing Sources                 (3,618)                             (615)
Total Unexpended Appropriations                    12,775                             16,393

Net Position                                $       13,051                      $     16,660



                   The accompanying notes are an integral part of these statements.




                                                  Page 36 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS




                                      Food and Nutrition Service
                   CONSOLIDATED STATEMENTS OF BUDGETARY RESOURCES
                     For the years ended September 30, 2011 (CY) and 2010 (PY)

                                             (Dollars in Millions)
                                                               FY 2011               FY 2010
                                                                (CY)                   (PY)
Budgetary Resources:
Unobligated balance, brought forward, October 1:                  $ 14,580           $ 15,473
Recoveries of prior year unpaid obligations                          1, 237              990
Budget authority
  Appropriation                                                       99,116           87,130
  Spending authority from offsetting collections
       Earned
           Collected                                                    136               129
       Change in unfilled customer orders
           Advance received                                              2                 (0)
           Without advance from Federal sources                         (0)                (0)
  Subtotal                                                          99,254             87,259
Non-expenditure transfers, net, anticipated and actual               5,410              7,038
Temporarily not Available                                             (125)                 0
Permanently not available                                           (5,706)             (313)
Total Budgetary Resources                                         $114,650           $ 110,447

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                          $ 103,867          $ 95,816
  Reimbursable                                                           57               51
  Subtotal                                                          103,924            95,867
Unobligated balance:
  Apportioned                                                        4,179              3,775
  Subtotal                                                           4,179              3,775
Unobligated balance not available                                    6,547             10,805
Total status of budgetary resources                               $114,650           $ 110,447



Change in Obligated Balances:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                  $  6,272           $ 5,347
  Total unpaid obligated balance, net                                6,272              5,347
Obligations incurred net (+/-)                                     103,924             95,866
Gross outlays                                                     (102,299)           (93,951)
Recoveries of prior year unpaid obligations, actual                 (1,237)              (990)
Change in uncollected customer payments from
Federal sources (+/-)                                                    (0)              (0)
Obligated balance, net, end of period

                                                  Page 37 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                           FINANCIAL STATEMENTS



  Unpaid obligations                                                 6,660             6,272
  Uncollected customer payments from Federal
  sources                                                                -                 -
  Total unpaid obligated balance, net, end of period                 6,660             6,272



Net Outlays:
  Gross outlays                                                     102,299            93,951
  Offsetting Collections                                               (138)             (129)
  Distributed offsetting receipts                                        -                 -
  Net Outlays                                                     $ 102,161          $ 93,822



                    The accompanying notes are an integral part of these statements.




                                                  Page 38 of 57
                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                      NOTES TO THE FINANCIAL STATEMENTS
                                    (Amounts shown are in Millions except as noted)


                                  FOOD and NUTRITION SERVICE

 Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food and Nutrition Service
   (FNS), as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular
   A-136 dated September 29, 2010. They have been prepared from the books and records of FNS
   in accordance with the Generally Accepted Accounting Principles (GAAP) as applied to the
   Federal Government. GAAP for Federal financial reporting entities recognizes the Federal
   Accounting Standards Advisory Board (FASAB) as the standard setting body.

   In accordance with the Office of Management and Budget and the Budget Execution of the
   American Recovery and Reinvestment Act (ARRA) of 2009 Appropriations, FNS has included
   in the FY 2011 financial statements the supplemental appropriations used to stimulate the U.S.
   economy. The ARRA appropriations for FY 2011 totaled $12.2 billion.

   FNS has also included in the FY 2011 financial statements a transfer of funds from the Partnership
   Fund for Program Integrity Innovation from the Office of Management and Budget in the amount of
   $2.5 million to support the Supplemental Nutrition Assistance Program.

B. Reporting Entity

   FNS, including the Center for Nutrition Policy and Promotion (CNPP), is under the jurisdiction
   of the Under Secretary for Food and Nutrition Consumer Service of the United States
   Department of Agriculture. FNS is headed by an administrator with overall policy formulated in
   the FNS headquarters in Alexandria, Virginia, and implemented through seven regional offices
   and 65 field offices, four Supplemental Nutrition Assistance Program (SNAP) compliance
   offices, one computer support center in Minneapolis, Minnesota. State departments of education
   have responsibility for food programs serving children in schools, child care centers, and
   summer recreation centers. State departments of health, welfare, and agriculture usually have
   responsibility for programs providing SNAP benefits or supplemental foods. For the FY 2011
   financial statement presentation, data classified as “Other” is primarily comprised of Nutrition
   Program Administration (NPA) appropriations. A detailed description of the FNS programs is
   contained in the Management Discussion & Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual
   method, revenues are recognized when earned and expenses are recognized when a liability is
   incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   compliance with legal constraints and controls over the use of Federal funds. These financial
   statements include all funds for which the FNS is responsible and were prepared in accordance
   with the GAAP hierarchy of accounting principles for the Federal Government.




                                                    Page 39 of 57
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)


D. Accounts Receivable

 The $324 million recognized as non-federal accounts receivable includes debts owed FNS by
 individuals, businesses, States and local governments. The largest single component of this item
 consists of SNAP recipient claims. States establish claims against households to recover over
 issued food stamp benefits. States are responsible for pursuing collection of such claims.
 Collections, less an authorized State retention amount, are remitted to FNS. The portion of total
 net realizable receivables consisting of SNAP recipient claims is the expected amount of such
 remittance from States. The data generated by the State systems of gross account receivables has
 been determined to be unreliable. Accordingly, FNS does not know what the State gross account
 receivable is. FNS have an alternative method for acquiring reliable State receivable information.

 FNS estimates net realizable SNAP accounts receivable through a regression-based statistical model.
 This model estimates future collections by the States, which the States will remit to the Federal
 Government as of the end of the accounting period based on the actual SNAP issuance and net claims
 collections for prior years. The forecasting model draws its predictive power from the strong historical
 relationship between the level of SNAP benefit issuance and the level of recipient claims collections by
 States. Applying the model to actual data covering the periods FY 1984 through FY 2011, the model
 explains 96 percent of the variation in claims collections. Historically, collections projected by the model
 have proved to be accurate within approximately 4 percent of actual net collections. Because the
 expected cash flow from collections of such claims beyond one year is not expected to be material, FNS
 does not estimate collections after the initial year or discount the estimate produced by the statistical
 model to its present value.

 The SNAP has a system for monitoring and controlling program issuance called the Quality
 Control (QC) system. It is an ongoing, comprehensive monitoring system required by the SNAP
 Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
 and “negative case actions” (terminations and denials of benefits), is chosen each month. State
 officials review the sampled case records to measure and verify the accuracy of eligibility and
 benefits determinations, made by State eligibility workers, against Program standards for the
 month under review. QC errors detected through the review process include both under issuance
 and over issuance to eligible households and issuance to households that are not eligible for
 benefits.

 Because reliable data is not available addressing gross FNS accounts receivable, the SNAP QC
 estimate of SNAP benefits over issued nationwide provide the best statistically valid estimate of
 invalid program payments. Fiscal Year 2010 QC error rates were announced in June 2011. Using
 this methodology, FNS estimates the value of benefit over issuance in Fiscal Year 2010 (the most
 recent year for which data are available) at $1.977 billion. Statement of Federal Financial
 Accounting Standards (SFFAS) #1 permits Federal entities to estimate its accounts receivable.
 The QC error rate over issuance estimate is considered the best estimate available. However,
 since this is an estimate of all SNAP overpayments, the actual State gross account receivable
 amount would be lower but the variance cannot be quantified. The amount of over issued benefits
 is included in the total program cost of the SNAP as reflected in the Statement of Net Cost.


 FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the
 end of the fiscal year; therefore, current information is not available for the FY 2011 financial statements.
 For FY 2010, two States were assessed amounts for having excessive error rates for two consecutive
 years. The aggregate total of the liability was $3 million. The two States signed payment agreements in

                                                   Page 40 of 57
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)


 lieu of immediately repaying in cash. The agreements called for each State to invest 50 percent of its
 liability in program improvement activities. The remaining 50 percent of the liability was placed at risk
 pending future improved performance.


          The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year              Rate Amount                    Total $ (Billions)
            2010                     3.05 %                         $1.977
            2009                     3.53 %                         $ 1.780
            2008                     4.01 %                         $ 1.387


E. Grants and Program Benefits

FNS records grant obligations based on the grant awards and SNAP benefits based on the issuance of
benefits to AMA. Funds for FNS grant programs and SNAP electronic benefits transfer (EBT) benefits are
provided to States through a Letter of Credit process. This process allows the grantees or the EBT
processor to draw on established credit balances, as needed, to pay expenses associated with their grants or
SNAP EBT transactions at retailers. This allows the U. S. Treasury to hold funds until the grantees need
the funds to pay program expenses or until the SNAP EBT benefits are actually used. Expenses are
recognized and obligations liquidated as grantees or EBT processors drawdown on the Letter of Credit.

F. Annual, Sick, and Other Leave

 Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
 balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent
 that current or prior year appropriations are not available to fund annual leave earned but not
 taken, funding will be obtained from current or future financing sources. Sick leave and other
 types of non-vested leave are expensed as taken.



G. Retirement Plan

 FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal
 Employees Retirement System (FERS). FNS makes matching contributions to the CSRS total
 plan equal to 8.5 percent of pay, while contributions to the FERS total plan are 10.7 percent of
 pay. For most employees hired since December 31, 1983, FNS also contributes the employer's
 matching share for Social Security. FERS went into effect pursuant to Public Law 99-335 on
 January 1, 1987. Most employees hired after December 31, 1983, are automatically covered by
 FERS and Social Security. A primary feature of FERS is that it offers a savings plan to which
 FNS automatically contributes 1 percent of pay and matches any employee contribution up to an
 additional 4 percent of pay. FNS makes these and other contributions to employee retirement
 plans as shown in the following table:




                                                   Page 41 of 57
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                        NOTES TO THE FINANCIAL STATEMENTS
                                      (Amounts shown are in Millions except as noted)


                         FNS Retirement Contributions (In Millions)
                                                                             Amount
 Type of Contribution                                                      2011          2010

 CSRS/Transitional retirement contributions - Civil Service                $1.9          $2.1
 FERS regular contributions                                               $10.2          $9.0
 Thrift Savings Plan contributions                                         $3.9          $3.5
 TOTAL                                                                     $16.0         $14.6




 These contributions are reported as expenses in the Statement of Net Cost. FNS does not report
 CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its
 employees. Reporting such amounts is the responsibility of the Office of Personnel Management's
 Federal Retirement System.

 Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
 Government, requires Federal entities to recognize an expense for pensions and other retirement benefits
 at the time the employee’s services are rendered. The purpose of recognizing this expense is to record and
 report the full cost of each entity’s operation. Corresponding revenue, Imputed Financing Sources, is
 recognized to the extent pension and other retirement benefit expenses exceed the amount paid to the
 Office of Personnel Management (OPM).

H. Recognition of Financing Sources and Appropriations Used

 FNS receives the majority of the funding it needs to support its programs through annual and
 multi-year appropriations. FNS recognizes appropriations as used at the time that program or
 administrative expenses are delivered and recognized. FNS recognizes appropriations expended
 for capitalized property or equipment as expenses when the assets are consumed in operations.
 Appropriations used are the amount of appropriations expended during the current period to fund
 FNS’ nutrition programs. This includes the NPA appropriation, which provides funds for salaries
 and administrative expenses.

 At the time grant awards are made, FNS records obligations for the full amount of expected
 expenses as unexpended obligations-unpaid (undelivered orders). Reductions in unexpended
 obligations occur as expenses are incurred by grantees. At year-end, grant obligations are accrued
 and reflected on the financial statements as accounts payable. At grant closeout, the unused
 portions of grant awards are deobligated; increasing the unobligated balances and is shown on the
 balance sheet as part of unexpended appropriations. Unobligated balances available for future
 periods are also shown as unexpended appropriations.

I. Fund Balance with Treasury Accounts

  The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with
  Treasury for which the agency is authorized to make expenditures and pay liabilities. The FNS Fund
  Balance with Treasury is primarily appropriated funds.



                                                      Page 42 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


J. Direct versus Reimbursable Obligations Incurred

   As of FY 2011, FNS’ direct and reimbursable obligations incurred are represented as amounts
   apportioned under category A and B. The amounts apportioned by Fiscal Quarter consist of FNS’
   category A obligations and the amounts apportioned for Special Activities consist of category B
   obligations as reported on the agency’s year-end SF133s, Report on Budget Execution and Budgetary
   Resources, and lines 8a and 8b of the Statement of Budgetary Resources.

   Note 2. Non-Entity Assets


                                                                           FY 2011           FY 2010
   Intragovernmental:
     Fund balance with Treasury                                                     $0           $0
     Investments                                                                     -            -
     Accounts Receivable                                                             -            -
     Loans Receivable                                                                -            -
     Other                                                                           -            -
   Total Intragovernmental                                                           -            -
   With The Public
     Cash and other monetary assets                                                  -            -
     Accounts receivable                                                            33           31
     Taxes receivable                                                                -            -
     Loan receivable and related foreclosed property                                 -            -
     Inventory and related porperty                                                  -            -
     Other                                                                           -            -
   Total With the Public                                                            33           31

   Total non-entity assets                                                          33           31

   Total entity assets                                                      18,210           21,618

   Total assets                                             $               18,243       $   21,649

   FNS’ Non-Entity Assets related to Accounts Receivable consists of FNS’ Miscellaneous Receipts,
   Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.




                                                  Page 43 of 57
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                         NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)



Note 3. Fund Balance with Treasury

    Note 3 Fund Balance with Treasury

Fund Balances:                                                                FY 2011         FY 2010
   Trust Funds                                                           $           -    $          -
   Revolving Funds                                                                   -               -
   Appropriated Funds                                                           17,511          20,852
   Other Fund Types                                                                  -              (1)
Total                                                                           17,511          20,851

Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                                      4,179          3,775
   Unavailable                                                                    6,672         10,805
Obligated Balance not yet Disbursed                                               6,660          6,272
Non-Budgetary Fund Balance with Treasury:
  Clearing Account Balances                                                          -              (1)
Total                                                                    $      17,511    $     20,851



Note 4. Accounts Receivable, Net



                                                 Allowance for
                  Gross Accounts                 Uncollectible           Accounts
     FY 2011      Receivable                     Accounts                Receivable, Net
Intragovernmental $              -               $              -        $               -
With the Public   $          326                 $             2         $         324
  Total           $          326                 $             2         $         324


                                                 Allowance for
                  Gross Accounts                 Uncollectible           Accounts
     FY 2010      Receivable                     Accounts                Receivable, Net
Intragovernmental $              -               $             -         $               -
With the Public   $          314                 $             3         $           310
  Total           $          314                 $             3         $           310



(1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.




                                                        Page 44 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10
years, using the straight-line method. For FY 2011 FNS’ capitalization threshold for property
and equipment is $25 thousand. FNS’ capitalization threshold for internal-use software is $100
thousand. FNS owns no buildings or land. FNS follows recognition and measurement criteria in
SFFAS No. 6 as amended by SFFAS No. 11 and 23, and USDA Departmental Regulation 2200-
002, dated December 24, 2003. At year end, balances for Property, Plant, and Equipment were as
follows:

  FY 2011                                                Useful                                               Net
                                                          Life                                Accumulated    Book
  Category                                              (Years)               Cost            Depreciation   Value
  Land and Land Rights                                                 $             -    $             -    $   -
  Improvements to Land                                                                -                  -           -
  Construction-in-Progress                                                            -                  -           -
  Buildings, Improvements and Renovations                                             -                  -           -
  Other Structures and Facilities                                                     -                  -           -
  Equipment                                               5-10                        5                  4           1
  Assets Under Capital Lease                                                          -                  -           -
  Leasehold Improvements                                                              -                  -           -
  Internal-Use Software                                    5                         31                 31           -
  Internal-Use Software in Development                                                -                  -           -
  Other Natural Resources                                                             -                  -           -
  Other General Property, Plant and Equipment                                         -                  -           -
    Total                                                              $             36   $             35   $       1




  FY 2010                                                Useful                                               Net
                                                          Life                                Accumulated    Book
  Category                                              (Years)               Cost            Depreciation   Value
  Land and Land Rights                                                 $             -  $               -  $     -
  Improvements to Land                                                                -                  -           -
  Construction-in-Progress                                                            -                  -           -
  Buildings, Improvements and Renovations                                             -                  -           -
  Other Structures and Facilities                                                     -                  -           -
  Equipment                                               5-10                        5                  3           2
  Assets Under Capital Lease                                                          -                  -           -
  Leasehold Improvements                                                              -                  -           -
  Internal-Use Software                                    5                         31                 31           -
  Internal-Use Software in Development                                                -                  -           -
  Other Natural Resources                                                             -                  -           -
  Other General Property, Plant and Equipment                                         -                  -           -
    Total                                                              $             36 $               34 $         2




                                                 Page 45 of 57
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)




 Note 6. Other Assets

                                                                             FY 2011           FY 2010
Intragovernmental:
   Advances to Others                                                  $           -       $             -
   Prepayments                                                                       -                     -
   Other Assets                                                                    407                   486
Total Intragovernmental                                                            407                   486

With the Public:
  Advances to Others                                                                   -                     -
  Prepayments                                                                          -                     -
  Other Assets                                                                         -                     -
Total With the Public                                                                  -                     -


Total Other Asssets                                                    $           407     $             486



FNS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity Credit
Corporation for the purchase of commodities.




Note 7. Liabilities Not Covered by Budgetary Resources

                                                Page 46 of 57
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                        NOTES TO THE FINANCIAL STATEMENTS
                                       (Amounts shown are in Millions except as noted)




Intragovernmental:                                                                       FY 2011         FY 2010
   Accounts payable                                                            $              -      $               -
   Debt                                                                                          -                        -
   Other                                                                                         1                        1
Total Intragovernmental                                                                          1                        1
With the Public:                                                                                 -                        -
Accounts Payable                                                                                 -                        -
Debt held by the public                                                                          -                        -
Federal employee and veterans' benefits                                                          6                        6
Environmental and disposal liabilities                                                           -                        -
Benefits due and payable                                                                         -                        -
Other                                                                                           12                       12
Total With the Public                                                                          18                        18


Total liabilities not covered by budgetary resources                                           19                        19


Total liabilities covered by budgetary resources                                            5,173                  4,970

Total liabilities                                                              $            5,192    $             4,989




FNS’ “Intragovernmental-Other Liabilities” consist of Unfunded FECA Liability. FNS’ “With
the Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.




                                                       Page 47 of 57
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                          NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)


Note 8. Other Liabilities

   FY 2011                                                                Non-Current        Current        Total
   Intragovernmental:
     Contract Holdbacks                                        $                 -       $      -      $     -
     Other Accrued Liabilities                                                       -           2            2
     Employer Contributions and Payroll Taxes                                        -           2            2
     Other Post-Employment Benefits Due and Payable                                  -           -            -
     Unfunded FECA Liability                                                         -           1            1
     Other Unfunded Employment Related Liability                                     -           -            -
     Advances from Others                                                            -           2            2
     Deferred Credits                                                                -           -            -
     Liability for Deposit Funds, Clearing Accounts                                  -           -            -
     Contingent Liabilities                                                          -           -            -
     Capital Lease Liability                                                         -           -            -
     Liability for Subsidy Related to Undisbursed Loans                              -           -            -
     Accounts Payable from Canceled Appropriations                                   -           -            -
     Resources Payable to Treasury                                                   -           -            -
     Custodial Liability                                                             -          33           33
     Other Liabilities                                                               -           -            -
   Total Intragovernmental                                                           -          40           40

   With the Public:
    Contract Holdbacks                                                               -            -            -
    Other Accrued Liabilities                                                        -        1,616        1,616
    Accrued Funded Payroll and Leave                                                 -            9            9
    Withholdings Payable                                                             -            -            -
    Employer Contributions and Payroll Taxes Payable                                 -            -            -
    Other Post-Employment Benefits Due and Payable                                   -            -            -
    Pension Benefits Due and Payable to Beneficiaries                                -            -            -
    Benefit Premiums Payable to Carriers                                             -            -            -
    Life Insurance Benefits Due and Payable                                          -            -            -
    Unfunded Leave                                                                   -           12           12
    Other Unfunded Employment Related Liability                                      -            -            -
    Advances from Others                                                             -            -            -
    Deferred Credits                                                                 -            -            -
    Liability for Deposit Funds, Clearing Accounts                                   -            -            -
    Prior Liens Outstainding or Acquired Collateral                                  -            -            -
    Contingent Liabilities                                                           -            -            -
    Capital Lease Liability                                                          -            -            -
    Accounts Payable from Canceled Appropriations                                    -            -            -
    Custodial Liability                                                              -            -            -
    Other Liabilities                                                                -            -            -
   Total With the Public                                                             -        1,637        1,637

   Total Other Liabilities                                     $                     - $      1,677 $      1,677




                                                          Page 48 of 57
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                       NOTES TO THE FINANCIAL STATEMENTS
                                     (Amounts shown are in Millions except as noted)




FY 2010                                                                Non-Current         Current        Total
Intragovernmental:
  Contract Holdbacks                                         $                -        $      -      $     -
  Other Accrued Liabilities                                                       -            5            5
  Employer Contributions and Payroll Taxes                                        -            1            1
  Other Post-Employment Benefits Due and Payable                                  -            -            -
  Unfunded FECA Liability                                                         -            1            1
  Other Unfunded Employment Related Liability                                     -            -            -
  Advances from Others                                                            -            -            -
  Deferred Credits                                                                -            -            -
  Liability for Deposit Funds, Clearing Accounts                                  -           (2)          (2)
  Contingent Liabilities                                                          -            -            -
  Capital Lease Liability                                                         -            -            -
  Liability for Subsidy Related to Undisbursed Loans                              -            -            -
  Accounts Payable from Canceled Appropriations                                   -            -            -
  Resources Payable to Treasury                                                   -            -            -
  Custodial Liability                                                             -           31           31
  Other Liabilities                                                               -            -            -
Total Intragovernmental                                                           -           36           36

With the Public:
 Contract Holdbacks                                                               -             -            -
 Other Accrued Liabilities                                                        -         1,570        1,570
 Accrued Funded Payroll and Leave                                                 -             7            7
 Withholdings Payable                                                             -             -            -
 Employer Contributions and Payroll Taxes Payable                                 -             -            -
 Other Post-Employment Benefits Due and Payable                                   -             -            -
 Pension Benefits Due and Payable to Beneficiaries                                -             -            -
 Benefit Premiums Payable to Carriers                                             -             -            -
 Life Insurance Benefits Due and Payable                                          -             -            -
 Unfunded Leave                                                                   -            12           12
 Other Unfunded Employment Related Liability                                      -             -            -
 Advances from Others                                                             -             -            -
 Deferred Credits                                                                 -             -            -
 Liability for Deposit Funds, Clearing Accounts                                   -             -            -
 Prior Liens Outstainding or Acquired Collateral                                  -             -            -
 Contingent Liabilities                                                           -             -            -
 Capital Lease Liability                                                          -             -            -
 Accounts Payable from Canceled Appropriations                                    -             -            -
 Custodial Liability                                                              -             -            -
 Other Liabilities                                                                -             -            -
Total With the Public                                                             -         1,589        1,589

Total Other Liabilities                                      $                    - $       1,625 $      1,625




                                                       Page 49 of 57
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                    NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




Note 9. Leases

Entity as Leasee:

Operating Lease (amounts shown are in thousands):

Description of Lease Arrangements: FNS’ holds one operating lease that includes office space leased from
May 1, 2009 through April 30, 2019. The cost of the lease is $618 per year until May 1, 2014. From May 1, 2014,
through April 30, 2019; the office space annual rent is reduced to $398 per year. The lease may be renewed at the option
of the Government for one 5 year term with the Government having the right to terminate, in whole or in part, at anytime,
by giving at least 120 days notice in writing to the Lessor.

Future Payments Due:

                       Asset Category

Fiscal Year                Office Space

Year 3                     $ 618
Year 4                     $ 618
Year 5                     $ 618
After 5 years              $1,992

Total future lease payments $3,846




                                                 Page 50 of 57
                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)


Note 10. Intragovernmental Cost and Exchange Revenue


     Child Nutrition                                       FY 2011                   FY 2010

     Intragovernmental Costs                          $              447         $                746
     Public Costs                                     $           17,497         $             16,654
     Total Costs                                      $           17,944         $             17,400

     Intragovernmental Earned Revenue                 $                    -     $                  -
     Public Earned Revenue                            $                    -     $                  -
     Total Earned Revenue                             $                    -     $                  -

     SNAP

     Intragovernmental Costs                          $              242         $                236
     Public Costs                                     $           77,563         $             70,461
     Total Costs                                      $           77,805         $             70,697

     Intragovernmental Earned Revenue                 $                  -       $                 -
     Public Earned Revenue                            $                 56       $                49
     Total Earned Revenue                             $                 56       $                49

     Other                                                FY 2011                    FY 2010

     Intragovernmental Costs                         $                168        $               147
     Public Costs                                    $                325        $               295
     Total Costs                                     $                493        $               442

     Intragovernmental Earned Revenue                $                    1      $                 2
     Public Earned Revenue                           $                    -      $                 -
     Total Earned Revenue                            $                    1      $                 2


     Women, Infants & Children

     Intragovernmental Costs                         $                  -        $                 -
     Public Costs                                    $              6,729        $             6,709
     Total Costs                                     $              6,729        $             6,709

     Intragovernmental Earned Revenue                $                    -      $                 -
     Public Earned Revenue                           $                    -      $                 -
     Total Earned Revenue                            $                    -      $                 -




                                               Page 51 of 57
                                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                                NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)

        Commodity Assistance Program                                           FY 2011                           FY 2010

        Intragovernmental Costs                                            $                       -         $                                   1
        Public Costs                                                       $                     271         $                                 341
        Total Costs                                                        $                     271         $                                 342

        Intragovernmental Earned Revenue                                   $                         -       $                                     -
        Public Earned Revenue                                              $                         -       $                                     -
        Total Earned Revenue                                               $                         -       $                                     -



FNS’ intragovernmental costs are exchange transactions made between FNS and another entity within the Federal
government. FNS cost with the public are exchange transactions made between FNS and a non-Federal entity. FNS’
intragovernmental exchange revenues are exchange transactions made between FNS and another entity within the Federal
government. FNS exchange revenues with the public are exchange transactions made between FNS and a non-Federal
entity.


Note 11. Program Costs By Segment
For the year ended September 30, 2011
                                                                                Women          Commodit
                                                                               Infants &           y
                                        CHILD NUTRITION       SNAP             Children        Assistanc      OTHER           Consolidated Total



   Total Gross Costs                              17,944        77,805             6,729            271           493                  103,242

   Less Earned Revenue:                                   0           56                   0             0               1                  57

   Net Goal Costs:                               17,944         77,749             6,729            271           492                  103,185


   Net Cost of Operations                                                                                                              103,185




For the year ended September 30, 2010
                                                                            Women          Commodit
                                                                           Infants &           y
                                        CHILD NUTRITION       SNAP         Children        Assistanc         OTHER           Consolidated Total



   Total Gross Costs                             17,400        70,697             6,709            342           442                  95,590

   Less Earned Revenue:                               0              49                0             0               2                    51

   Net Goal Costs:                               17,400        70,648             6,709            342           440                  95,539


   Net Cost of Operations                                                                                                             95,539




                                                                Page 52 of 57
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                              NOTES TO THE FINANCIAL STATEMENTS
                                            (Amounts shown are in Millions except as noted)


Note 12. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists largely of the $55 from the state option
Supplemental Nutrition Assistance Program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option Supplemental Nutrition Assistance Program. In this program,
States issue SNAP benefits through the Federal government for use in a State-funded food assistance
program for legal immigrants, and childless, able-bodied adults ineligible for the Supplemental Nutrition
Assistance Program.

States operating a state option Supplemental Nutrition Assistance Program utilize FNS’ SNAP
infrastructure. That is, they utilized electronic benefits transfer (EBT) issued benefits from FNS which
are transacted at FNS authorized SNAP retailers. These benefits are subsequently redeemed through the
Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as
well as reimburse FNS for the costs of redeeming benefits. During fiscal year 2011, 3 States participated
in this program, which generated earned revenues of $55.

Note 13. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

    FY 2011                                    Direct                      Reimbursable            Total
Apportionment by Fiscal Quarter      $                   24,263   $                        1   $            24,264
Apportionment for Special Activities                     79,604                           56                79,660
Exempt from Apportionment                                     -                            -                     -
Total Obligations Incurred           $                  103,867   $                       57   $           103,924


    FY 2010                                    Direct                      Reimbursable            Total
Apportionment by Fiscal Quarter      $                   23,611   $                        2   $            23,613
Apportionment for Special Activities                     72,205                           49                72,254
Exempt from Apportionment                                     -                            -                     -
Total Obligations Incurred           $                   95,816   $                       51   $            95,867


Note 14.Explanation of Differences between the Statement of Budgetary Resources and the Budget of the United
States Government

Differences exist between FNS’ FY 2010 Statement of Budgetary Resources (SBR) (as provided to the
Department for consolidation purposes) and the FY 2010 actual numbers presented in the FY 2012
Budget of the United State Government (Budget). These differences are summarized below:

            Description                           Budgetary Resources                               Outlays
            2010 SBR                                  $ 110,446                                     $93,822
Less: Expired Accounts not                                  $10,888                                         $0
Included in Budget
Add: Parent Child                                                     $5                                    $5
Relationship (NIFA)
Add: Differences due to                                           $(1)                                      $2
Rounding
Budget of the U.S.                                          $99,562                                 $93,829
Government

                                                              Page 53 of 57
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                         NOTES TO THE FINANCIAL STATEMENTS
                                       (Amounts shown are in Millions except as noted)



The actual numbers for the FY President’s Budget have not yet been published as of FNS’ FY 2011
financial statements, and it is expected that the actual numbers will be published in February of the
following fiscal year and will be available on the website at www.whitehouse.gov.

Note 15. Undelivered Orders at the end of the Period

Budgetary resources obligated for undelivered orders as of September 30, 2011 and 2010 was $1.4 billion.



Note 16. Incidental Custodial Collections



Revenue Activity:                                                                 FY 2011             FY 2010
  Sources of Collections:
  Miscellaneous                                                             $               6     $             11
Total Cash Collections                                                                      6                   11
Accrual Adjustments                                                                         (1)                 (5)
Total Custodial Revenue                                                                     5                    6
Disposition of Collections:
Transferred to Others:
    Treasury                                                                                 -                   -
    States and Counties                                                                      -                   -
( Increase )/Decrease in Amounts Yet to be Transferred                                      (5)                 (6)
Refunds and Other Payments                                                                   -                   -
Retained by the Reporting Entity                                                             -                   -
Net Custodial Activity                                                       $               -    $              -


FNS’ FY 2011 custodial activity represents all accounts receivable activity related to cancel year
appropriations for interest, fines & penalties assessed and collected. For example; civil money penalties,
interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts Receivable”, for further
disclosures on FNS’ collection activities). FNS transfers these types of collections to the Department of
Treasury. FNS’ custodial collection activities are considered immaterial and incidental to the mission of
FNS.




                                                         Page 54 of 57
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


Note 17. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

Resources Used to Finance Activities:                                                FY 2011            FY2010

Budgetary Resources Obligated

    Obligations Incurred                                                             $ 103,924          $ 95,866
    Less: Spending authority from offsetting collections and recoveries                    1,375            1,118
                                                                                      ------------      -----------
    Obligations net of offsetting collections and recoveries                            102,549            94,748
    Less: Distributed Offsetting Receipts                                                     -                -
                                                                                      ------------      -----------
    Net Obligations                                                                    102,549             94,748
                                                                                       ------------     -----------
    Other Resources
    Donations and forfeitures of property                                                    -              -
    Transfers in (out) without reimbursement                                                 -             -
    Imputed financing from costs absorbed by others                                         755            1,050
    Other                                                                                   -              -
                                                                                       ------------     -----------
    Net other resources used to finance activities                                          755            1,050

                                                                                         FY 2011         FY 2010


    Total resources used to finance activities                                             103,304       95,798

   Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources obligated for goods, services and benefits
   ordered but not yet provided                                                               (111)       (278)
   Resources that fund expenses recognized in prior periods                                     -             -
   Budgetary offsetting collections and receipts that do not
    affect net cost of operations
       Credit Program collections which increases liabilities for
       loan guarantees or allowances for subsidy                                                -               -
       Change in Unfilled Customer Orders                                                        2              -
       Decrease in exchange revenue receivable from the public                                   -              -
       Other                                                                                     -              -
   Resources that finance the acquisition of assets                                              -              -
   Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                                          -               -
                                                                                          -----------    ------------
    Total resources used to finance items not part of the net cost
    of operations                                                                             (109)        (278)
                                                                                          -----------    -----------
        -

    Total resources used to finance the net cost of operations                             103,195       95,520
    Components of the Net Cost of Operations that will not require or

                                                  Page 55 of 57
                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                               NOTES TO THE FINANCIAL STATEMENTS
                             (Amounts shown are in Millions except as noted)


Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                   -               1
   Increase in environmental and disposal liability                                     -               -
   Upward/Downward re-estimates of credit subsidy expense                                -              -
   Increase in exchange revenue receivable from the public                             -                -
   Other                                                                              (13)            16
                                                                                 ----------     ----------
-
  Total components of Net Cost of Operations that will require or
  generate resources in future periods                                               (13)             17
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                            1           2
  Revaluation of assets or liabilities                                                 -               -
  Other Components not Requiring or Generating Resources:
    Bad Debt Expense                                                                   2                -
    Cost of Goods Sold                                                                 -                -
    Other                                                                             -                 -
                                                                                 -----------     ---------
-
    Total components of Net Cost of Operations that will not require
    or generate resources                                                              3              2
                                                                                  -----------    ---------
    -

    Total components of Net Cost of Operations that will not require
    or generate resources in the current period                                      (10)            19
                                                                                  ----------     ---------
    -

    Net Cost of Operations                                                      $ 103,185 $95,539
                                                                                  ======   ======




                                             Page 56 of 57
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2011
                                       NOTES TO THE FINANCIAL STATEMENTS
                                      (Amounts shown are in Millions except as noted)


                          FOOD AND NUTRITION SERVICE
               REQUIRED SUPPLEMENTARY STEWARDHIP INFORMATION
                           STEWARDSHIP INVESTMENTS
                            (Amounts shown are in millions)


Human Capital

1. A. Supplemental Nutrition Assistance Program (SNAP).

     B. Program Expense                              2011         2010

        1. Employment and Training                    $45         $63

FNS’ human capital consists of employment and training (E&T) for the Supplemental Nutrition Assistance Program.
The E&T program requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 688,630 work registrants subject to the 3 - month SNAP participant limit and 1,417,671 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.


Nonfederal Physical Property

1.    A. Supplemental Nutrition Assistance Program

      B. Program Expense                            2011         2010

          1. ADP Equipment & Systems                 $40         $41


FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Supplemental Nutrition Assistance Program. The total SNAP
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.


2. A. Special Supplemental Nutrition Program for Women, Infants and Children (WIC)

      B. Program Expense                            2011         2010

          1. ADP Equipment & Systems                 $16         $17


FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants
and Children.




                                                      Page 57 of 57
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
